<html>
<title> - TAIWAN, THE PRC, AND THE TAIWAN SECURITY ENHANCEMENT ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
        TAIWAN, THE PRC, AND THE TAIWAN SECURITY ENHANCEMENT ACT

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                           SEPTEMBER 15, 1999

                               __________

                           Serial No. 106-61

                               __________

    Printed for the use of the Committee on International Relations




                      U.S. GOVERNMENT PRINTING OFFICE
60-545 CC                     WASHINGTON : 1999




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff

                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARK SANFORD, South Carolina             Samoa
MATT SALMON, Arizona                 MATTHEW G. MARTINEZ, California
JOHN McHUGH, New York                SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         ROBERT WEXLER, Florida
PAUL GILLMOR, Ohio                   JIM DAVIS, Florida
DONALD A. MANZULLO, Illinois         EARL POMEROY, North Dakota
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
JOHN COOKSEY, Louisiana              ALCEE L. HASTINGS, Florida
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate





                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Craig Thomas, A U.S. Senator from State of Wyoming 
  and Chairman, Subcommittee on East Asian and Pacific Affairs, 
  Senate Foreign Relations Committee.............................     1
Dr. Susan Shirk, Deputy Assistant Secretary for East Asian and 
  Pacific Affairs, U.S. Department of State......................    12
Dr. Kurt Campbell, Deputy Assistant Secretary for International 
  Security Affairs/Asian and Pacific Affairs, U.S. Department of 
  Defense........................................................    15
The Honorable Caspar Weinberger, Chairman, Forbes Magazine 
  (Formerly Secretary of Defense)................................    24
The Honorable R. James Woolsey, Partner, Shea & Gardner (Formerly 
  Director of Central Intelligence Agency).......................    27
Dr. David M. Lampton, Director, Chinese Studies, School of 
  Advanced International States, Johns Hopkins University........    31

                                APPENDIX

Prepared Statements

The Honorable Doug Bereuter, A U.S. Representative in Congress 
  from the State of Nebraska.....................................    44
The Honorable Craig Thomas, A U.S. Senator in Congress from the 
  State of Wyoming...............................................    47
The Honorable Eni Falemomavaega, a Delegate in Congress from 
  American Samoa.................................................    50
Dr. Susan Shirk..................................................    52
Dr. Kurt Campbell................................................    61
Dr. David M. Lampton.............................................    66


  HEARING ON TAIWAN, THE PRC, AND THE TAIWAN SECURITY ENHANCEMENT ACT

                              ----------                              


                     Wednesday, September 15, 1999

                  House of Representatives,
              Subcommittee on Asia And the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter. The Asia and the Pacific Subcommittee will 
come to order.
    I would ask unanimous consent, in order to accommodate the 
schedule of our distinguished colleague from the Senate, 
Senator Thomas, to revise the agenda for today. We will move 
directly into the hearing on Taiwan. Then, my intention is to 
take the testimony from Senator Thomas and return to the East 
Timor markup, at which time the Ranking Democrat and this 
Member will have an opportunity for their opening statements on 
the Taiwan resolution.
    Without objection, that will be the order.
    I will hold for future minutes a full statement about the 
Taiwan hearing, which we are moving to directly for the moment 
today, and just say that the Subcommittee on Asia and the 
Pacific meets today to examine its security requirements of 
Taiwan in the face of increased tension with the People's 
Republic of China and receive testimony regarding the proposed 
Taiwan Security Enhancement Act.
    I am extremely pleased to have our distinguished former 
House colleague, Senator Thomas, with us today. He serves as 
the Chairman of our counterpart subcommittee, the East Asian 
and Pacific Affairs Subcommittee of the Senate Foreign 
Relations Committee. We appreciated your involvement in our 
joint hearing last week on East Timor, Senator Thomas, and we 
appreciate your testimony today.
    Your entire statement will be made part of the record, if 
you have a written statement. You may proceed as you wish and, 
again welcome back to the House side.

 STATEMENT OF THE HON. CRAIG THOMAS, SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Thomas. Thank you very much, Mr. Chairman. I 
appreciate being able to participate and particularly thank you 
for your holding the hearing today on Taiwan.
    I appreciate the opportunity to testify, and I believe this 
is one of the most important foreign issue policies that we 
will face in this Congress. Our triangular relationship with 
Taiwan and the PRC is the most complex and challenging that we 
have in Asia. We have a compelling interest in a stable, 
bilateral relationship with the People's Republic, and in 
maintaining a close relationship with Taiwan.
    Unfortunately, historic circumstances have often made those 
interests mutually exclusive and made the job of maintaining 
both the relationships simultaneously like walking on a 
slippery tightrope.
    Beijing and Taipei both favor intervention in cross-straits 
relations by the United States but on their own terms. There is 
little, if any, support for true mediation on our part. Every 
one of our actions is scrutinized by each side to determine 
whether it is pro-Beijing or pro-Taipei, and we are condemned 
for our action on the losing side.
    Putting the United States in the middle serves no useful 
purpose. The two sides tend to walk through us and talk to each 
other, but through us. This is a matter that needs to be 
resolved by the Taiwanese and the PRC in a peaceful manner 
without being triangulated.
    As you are well aware, Mr. Chairman, this relationship has 
only gotten more worrisome in the past 3-months since President 
Lee's statement about the state-to-state relations between the 
PRC and Taiwan. The reaction from the PRC was predictably 
strident. It is unclear whether the PRC will have a reaction 
over and above the rhetoric, such as a movement of troops to 
provinces bordering the Taiwan Straits, military exercises, or, 
as in 1996, missile tests north and south of the islands.
    This latest deterioration in cross-straits relations and 
more particularly its timing are very unfortunate. Recently the 
two sides had resumed their high level contacts after a 5-year 
hiatus. The PRC representative was scheduled to visit Taiwan 
this fall. This resumption is important because nothing is ever 
going to be resolved by the two sides sitting on the opposite 
shores of the Taiwan Straits staring glumly at each other.
    Despite all these challenges, however, the United States, 
through both Republican and Democrat Administrations, has 
managed to strike a balance between the two competing 
interests, a balance reflected in the three U.S.-PRC joint 
communiques and in the Taiwan Relations Act. The communiques 
have enabled us to develop a workable, if sometimes bumpy, 
bilateral relationship with the People's Republic of China.
    The Taiwan Relations Act has allowed us to continue our 
close and long-standing relationship with the government and 
the people of Taiwan. Helping to guarantee Taiwan's security 
has enabled it to become the economically vibrant, multiparty 
democracy that it is today. It isn't perfect, it isn't always 
tidy, but it does seem to work.
    I think one of the things we really need to perfect is the 
idea that each of us, including the President of the United 
States as he goes to these countries, is saying the same thing. 
Sometimes we see the interpretation of the communiques being 
used a little differently in one setting than in another. I 
think that is a difficult thing to overcome.
    For that reason, Mr. Chairman, I am not supportive of S. 
693, the Taiwan Security Enhancement Act, and its counterpart 
in the House, H.R. 1838. If these bills are enacted, I think it 
would threaten the delicate balance we have achieved in these 
relationships. Rather than enhance Taiwan's security, I believe 
it would actually endanger Taiwanese security by making the PRC 
more belligerent and destabilize the region. The bills would be 
interpreted by Taiwan and the PRC, and correctly so, as a 
significant revision of the Taiwan Relations Act and a partial 
repudiation of the joint communiques. By mandating the 
establishment of more high level military-to-military ties, in 
essence an official formal military relationship, the bill 
would be seen as a reversal of 20-years of our commitment to 
maintaining only unofficial ties with Taipei.
    Coming at a time when relations across the Straits are 
already severely strained by what Beijing perceives to be 
Taipei's repudiation of the one-China policy, it would be read 
in Beijing as a major U.S. policy shift aimed at bolstering 
Taiwanese independence status.
    In addition, the bill places Congress in the position of 
supporting sales of particular weapon systems to Taiwan. The 
Administration has already decided against furnishing Taipei 
with several of the systems because they do not meet the 
criteria set out in the Shanghai Communique of being purely 
defensive. By putting its prospective seal of approval on the 
sale of the systems, the Congress would in effect be suggesting 
that the President act counter, not only to the spirit, but to 
the letter of the communiques.
    Moreover, while I am certainly not a constitutional expert, 
nor a defender of the constitutional prerogatives of this 
President, it does seem to me that several sections of the bill 
are constitutionally suspect, for example, section 4(b), 5(b), 
and 5(c). By directing that he take specific military-related 
action seems to me to infringe on the President's authority as 
Commander-in-Chief, Article II of the Constitution.
    Mr. Chairman, we are all concerned about Taiwanese 
security. We are all in agreement with the proposition that 
Beijing must remember that any attempts to settle the Taiwan 
question with the barrel of a gun is the threat to the peace 
and stability of East Asia, and thus a direct threat to U.S. 
interests. But these bills are designed to fix something that 
has generally worked and in the process would make things even 
more difficult between us and the PRC, between the PC and 
Taiwan.
    No one from the government in Taiwan has come to me and 
said they feel that the Taiwan Relations Act is in need of 
fixing. Our challenge, I believe, is to make it work.
    Mr. Chairman, I thank you for the opportunity to share my 
views on this, and I am pleased you are having this hearing and 
we will look forward to your other witnesses.
    [The prepared statement of Senator Thomas, appears in the 
appendix.]
    Mr. Bereuter. Chairman Thomas, thank you very much for your 
direct and very clear statement of your objections and concerns 
about the pair of bills that are pending, one of which is in 
part the topic of our hearing today. We will weigh your 
comments very carefully, and very seriously. I know you have 
thought about this subject a great deal, as I have, and the 
reason I thought a hearing was appropriate is because the 
proposed legislation is in fact very significant in the changes 
proposes it.
    I would ask my colleagues if there is anyone among you who 
would ask questions of Senator Thomas. I see the gentleman from 
Arizona. We will proceed under the 5-minute rule.
    Mr. Salmon. Senator Thomas, I really appreciate your 
comments. I was able to go to Beijing and Tibet about 4-months 
ago and I recently completed a trip to Dharamshala, India, to 
meet with the Dalai Lama, because I have been concerned about 
the Tibet issue. I know we are not here to discuss that. But I 
think the relationship, obviously you know as well as I do that 
the PRC's biggest concern is Taiwan, and I think not so far 
behind it would probably be the Tibet issue as well. I think 
they are both very, very important.
    I had the luxury of serving a mission for my church in 
Taiwan from 1977 to 1979, where I really grew to love and 
admire and respect the people of Taiwan and the evolving 
democracy in Taiwan. That having been said, I appreciate your 
comments immensely, because I think it is, as you said, a very 
delicate balance.
    I for one am very frustrated about what I perceive to be 
downright irresponsible comments by the president of Taiwan, 
Lee Teng-hui, regarding the independence issue. This 
government, and I believe this Congress, is very, very 
supportive of Taiwan, as it should be, and will be on into the 
future. I think we have tried to be as unambiguous as we 
possibly can with the PRC regarding our involvement should they 
ever decide to become involved militarily. I think the Congress 
has spoken loud and clear on that even though the 
Administration may not have.
    I think an admonition I would like to throw out yet one 
more time is if Taiwan expects us to stand by in the way that 
we have and will continue to in the future, the president of 
Taiwan has got to be a little bit more responsible when it 
comes to some of the comments that are made. I am just 
interested in your thoughts on that.
    Senator Thomas. I happen to agree with that. I think 
sometimes Taiwan has taken a little advantage of the fact that 
we are there, and we are there to support them, to kind of 
tweak the PRC, when it is probably not necessary. I was 
probably impressed as much as anything over the last several 
years in Singapore talking to the senior minister, whose 
admonition was, you know, we just ought to try and keep things 
kind of quiet for a while, for a number of years, it may even 
take a generational change in leadership before this problem is 
solved. But to try to move quickly to solve it, one side or the 
other, is probably not a very successful kind of a thing to do. 
I appreciate what you are saying and I agree.
    Mr. Salmon. Ultimately I think we have adhered to a one-
China policy in this country steadfastly over the years, and it 
is something that we have all pretty much come to accept and 
will go on into the future. We all hope there is a peaceful 
reunification, but this kind of saber rattling on either side, 
in my estimation, is completely irresponsible. You think it is 
time Congress stands up. I know we are strong allies when it 
comes to Taiwan. But friends have to be plain-spoken sometimes 
with friends and telling them you are not being productive.
    Senator Thomas. I agree.
    Mr. Bereuter. Are there further questions for Senator 
Thomas? Thank you, Mr. Salmon.
    Senator, as you know it is U.S. policy not to act as 
negotiator on Taiwan-PRC relations, and I think the question 
then is as follows: How does Congress, as one of our elements 
of the U.S. Government, appropriately influence Taiwan-PRC 
relations without becoming an arbiter? I am not going to ask 
you to respond to that, but I would say that you and I and our 
Democratic counterparts need to sit down quietly and discuss 
this. I look forward to doing that with you.
    Senator Thomas. I think that is a good idea. We ought to 
talk about it, we ought to kind of come to some resolution 
among ourselves, and each of us sort of say the same thing as 
we go about it.
    Mr. Bereuter. Thank you, Senator, for your time today. We 
appreciate your testimony. I am sorry. I didn't see a question 
here. The gentleman from California, Mr. Berman, is recognized 
for questioning.
    Mr. Berman. Senator, it is good to have you here. Thank 
you, Mr. Chairman.
    I know from your interest in your position in the Senate 
how involved you have been on this. I missed your testimony, 
but, in reading your prepared testimony, you say that one of 
the reasons you are critical of the legislation is because it 
proposes specific weapons systems be sold which the 
Administration, for whatever reason, has already decided not to 
sell.
    Am I understanding that correctly?
    Senator Thomas. Yes.
    Mr. Berman. You talk about specific systems. Are you 
talking about missile defense systems or are you talking about 
with more specificity than that?
    Senator Thomas. Let's see, where was that. Just a second.
    Mr. Berman. I can also wait until the Administration is 
here.
    Senator Thomas. I think there are some fairly specific 
things--diesel powered submarines, for example, anti-submarine 
systems--those kind of things that are specifically laid out 
there.
    Mr. Berman. Thank you.
    Mr. Bereuter. Mr. Faleomavaega.
    Mr. Faleomavaega. I want to thank Senator Thomas for his 
statement. We certainly welcome him being here. Just one basic 
question I do have for the Senator. In his mind, does he know 
of any provisions in the current U.S.-Taiwan Relations Act that 
you find deficient in terms of this security relationship 
currently existing between the United States and Taiwan? It 
seems to me as you have pointed out in your testimony, it is 
not a lack of commitment on our part. To me there is part of 
our security agreement with Taiwan. But to be adding more fuel 
to the fire that is unnecessary, I am concerned about that 
issue as well. I was just wondering from the Senator if he 
knows of any provision under the current relationship or the 
act that raises a question of us lacking in our commitment to 
support Taiwan, if there is an emergency of such?
    Senator Thomas. It seems to me that it makes it pretty 
clear that our position is that we will urge whatever changes 
that need to take place in a peaceful way, and if they are not 
done peacefully, then we are prepared--even though it could be 
more specific in the Taiwan Relations Act, there is no question 
about that, you would think we have interpreted that properly 
that we are there, and I think the appearance of a U. S. Navy 
vessel in the Straits last time indicated that we do recognize 
that we are going to help them in case--we are going to help 
their defense in case of military action. So I think it is 
clear enough.
    Mr. Faleomavaega. I thank the gentleman.
    Mr. Bereuter. Thank you. Mr. Rohrabacher.
    Mr. Rohrabacher. I will make this very quick. Senator 
Thomas, isn't this a right time to doing something that the 
Chinese communist regime will understand? How much more do they 
have to do before we do something that the communist Chinese in 
Beijing will understand that we are in this position, that we 
are supporting--not an independent Taiwan necessarily, but a 
Taiwan that is independent of threats of force and violence 
from the mainland? How much more does the regime in Beijing 
have to do before we have to do something more definitive?
    Senator Thomas. You know, I think we can be definitive, 
Dana, the way we are, and we can be definitive. We have the 
backup in this Taiwan Relations Act, in my judgment, to support 
what we do. I think we make that very clear. They are going to 
continue to do some of these things. That is just the way they 
operate. They are going to continue to have missiles on the 
Straits and so on, because that is sort of their way of sending 
messages. But I don't think we ought to be stampeded by that. I 
think we ought to continue. We know what our position is, and 
we simply need to be prepared to stand there.
    Mr. Rohrabacher. Because the Chairman admonished me, I will 
leave it at that.
    Senator Thomas. Well, let me just say, I don't see any 
particular reason to restate this, to do something to make this 
tension higher than it is now.
    Mr. Rohrabacher. I don't think America's position is clear. 
I think this Administration has been unclear about what our 
position is, and I think that perhaps then it means the Members 
of Congress have to be clear, and I believe that we as a body 
should reaffirm our commitment to that democratically elected 
government there in Taipei that they will not be victimized by 
force and violence without the United States there to help them 
out.
    Senator Thomas. I couldn't agree with you more, but I think 
we ought to do it in the way the Chairman suggests, which is 
kind of get together, because we have the authority to do that 
now. Thank you.
    Mr. Bereuter. I thank the Chairman. I do thank the 
gentleman from California. We are going to be returning to two 
additional panels shortly and will have plenty of time to 
discuss these very important issues. Senator Thomas, thank you 
very much.
    Pursuant to the revised meeting notice circulated in 
accordance with the unanimous consent request earlier approved, 
we will recess the hearing on Taiwan and move to the first item 
on the agenda today, the markup of H. Res. 299, the resolution 
on East Asia Timor.
    [Whereupon, at 1:20 p.m., the Subcommittee proceeded to 
other business.]
    [Whereupon, at 1:40 p.m., the Subcommittee resumed the 
hearing.]
    Mr. Bereuter. We will now return to the item on the agenda, 
the Taiwan hearing, which we briefly recessed a few minutes 
ago. I did not give an opening statement. I am going to make an 
opening statement, turn to Mr. Lantos, and then to any other 
Members of the Subcommittee or Members of the Committee who 
wish to make a statement. I will then call Dr. Shirk to the 
table in a few minutes. She can come forward.
    I think there should be no question of U.S. support for 
Taiwan. I really think that is the case. Taiwan has developed 
into a full-fledged, multi-party democracy that respects human 
rights and civil liberties. Taiwan has grown into one of the 
strongest and most developed economies in East Asia, and it is 
America's 7th largest export market. Students from Taiwan study 
at virtually every American college and university. I have 
former students back in Taiwan doing what they are supposed to 
be doing with their cities. These ties with Taiwan are strong 
and forged by mutual respect and cooperation.
    Consistent with the Taiwan Relations Act, the United States 
provides Taiwan with the equipment and expertise to provide for 
its self-defense. However, the issue of Taiwanese security has 
assumed greater importance in recent weeks as relationships 
between Taipei and Beijing have become increasingly strained. 
In July, Taiwan's President Lee remarked that Taiwan-mainland 
relations should be on the basis of state-to-state relations. 
While these comments have proven popular among some people in 
Taiwan and elsewhere, including some Americans, they have drawn 
harsh criticism in Beijing. The Chinese Foreign Minister has 
labeled President Lee a troublemaker and complained that his 
remarks are a stumbling block in the improvement of China-U.S. 
Relations.
    Just as disturbing, we have witnessed an increase in 
military tension between Taiwan and the People's Republic of 
China. The PRC is in the midst of a series of military 
exercises, including amphibious landing exercises that can be 
seen as provocative. Beijing also seems to have engaged in a 
dangerous series of probes of Taiwan's airspace. A supply ship 
to Taiwan's outer islands was halted, and there is an increased 
deployment of such offensive ballistic missiles in Fujian 
Province, just across the strait from Taiwan. It seems that 
missiles clearly are designed to threaten or act against 
Taiwan. Not surprisingly, many on Taiwan are alarmed by such 
blatant attempts at intimidation.
    The question before the Subcommittee today is whether the 
Taiwan Relations Act continues to provide adequate security for 
the people of Taiwan. While the TRA has provided solid 
direction and consistency in our relations with Taiwan over the 
past 20-years, significant changes have occurred on both sides 
of the Taiwan Strait since its enactment. Taiwan is far 
different today than it was in 1979; so, too, is the PRC. Do we 
need, as some Americans urge, to modify the Taiwan Relations 
Act, or to adjust our longstanding foreign policy position in 
order to reflect the changes in Taiwan? Is it time to establish 
deeper, more formalized military-to-military ties with Taiwan?
    Certainly there are some who wish to sell a greater range 
of weapons systems to Taipei and to increase the quality and 
quantity of official contacts. But will an altered relationship 
actually enhance Taiwanese security? It is a very important and 
basic question. Most importantly, would such a change be in our 
national interest?
    We have heard Senator Thomas' testimony already. The 
Subcommittee learned yesterday that the President has requested 
that Assistant Secretary of State Stanley Roth remain with him 
for the remainder of the post-APEC Summit meetings. Assistant 
Secretary of State Roth, who was to have been representing the 
position of the Administration today, was detained. Therefore, 
testifying in his stead will be the Deputy Assistant Secretary 
of State, Susan Shirk.
    Dr. Shirk most recently testified before the Subcommittee 
in April on the occasion of the 20th anniversary of the Taiwan 
Relations Act. Dr. Shirk, I hope you might be able to provide 
the Subcommittee a summary of the weekend's bilateral 
discussion between the President and Chinese President Jiang 
Zemin, particularly on the discussions related to the security 
of Taiwan. I know it is a big order. You may not be able to. 
That is my hope.
    Representing the Department of Defense is Dr. Kurt 
Campbell. As the Deputy Assistant Secretary for International 
Security Affairs, Dr. Campbell is responsible for Asian policy 
and specifically focuses on the defense provisions in the TRA. 
Dr. Campbell has testified before the Subcommittee several 
times. We both participated last week in an Australian-American 
leadership dialogue. I am pleased to have you back before the 
Subcommittee as well, Dr. Campbell.
    On our panel of private witnesses, we are very privileged 
to welcome the Honorable Casper W. Weinberger, former Secretary 
of Defense and Chairman of Forbes Magazine. Secretary 
Weinberger remains a prolific commentator on a wide range of 
national security issues including East Asian security. 
Welcome, Mr. Secretary.
    The Honorable R. James Woolsey also has a long, 
distinguished career of public service as Ambassador, an arms 
control negotiator, and, most recently, as President Clinton's 
initial Director of Central Intelligence. Director Woolsey is 
presently a partner at the law firm of Shea & Gardner.
    Finally, Dr. David M. Lampton is Director of China Studies 
at the Johns Hopkins School of Advanced International Studies. 
Dr. Lampton is a widely published international authority on 
China and East Asia. It is good to see you and to hear your 
testimony today. I enjoyed our time together in conference in 
China.
    Without objection, your full statements will be made part 
of the record, for both panels. Consistent with the practice we 
are going to ask for some limit on time, I would now like to 
turn to the distinguished Ranking Member, Mr. Lantos, and then 
turn to the Chairman of the Committee, Mr. Gilman, for their 
comments.
    Mr. Chairman Mr. Lantos.
    Mr. Lantos. Mr. Chairman, I want to commend you for holding 
this hearing, and, since you are anxious to get our 
distinguished witnesses' testimony, I shall be very brief.
    Whenever we deal with China and Taiwan, there is a 
frivolous interplay of symbolism and substance. Those of us in 
the Administration by virtue of the fact that they represent 
the government of the United States are always heavy on 
symbolism, and those of us in Congress who don't have the 
restrictions that are placed upon our governmental 
representatives in the executive branch prefer to deal with 
substance.
    Let's take the words ``one-China policy.'' Well, it depends 
on how you interpret one-China policy. One way of interpreting 
one-China policy is to say as things evolve on the mainland and 
China becomes a full fledged political democracy, there will be 
a peaceful resolution of the Taiwan-Mainland China conflict by 
these two democratic societies merging into one-China.
    Yet at the same time it is sort of self-evident that Taiwan 
is very much a country. As a matter of fact, Taiwan is a model 
of what we had hoped destitute, dictatorial, underdeveloped 
societies will develop into. Taiwan is developed, prosperous, 
and democratic. What more can you ask for? And the support that 
Taiwan enjoys in the Congress and among the American people is 
a reflection of the admiration the American people have for 
these incredible achievements.
    My first visit to Taiwan was many decades ago when Taiwan 
was destitute, dictatorial and undemocratic. Recent visits to 
Taiwan demonstrate to anybody that it is a democratic, 
prosperous, market-oriented, pro-American society.
    So it is important not to be confused by this frivolous 
interplay of substance and symbolism which confuses and 
permeates the dialogue we have, both among ourselves and with 
the Administration on the subject of Taiwan and China.
    I would like to say a word about President Lee, who 
precipitated, or he is claimed to have precipitated, the most 
recent crisis.
    Awhile back, President Lee was offered an honorary 
doctorate from Cornell University, his alma mater, where he 
received a Ph.D. in agricultural economics, and our 
Administration decided to deny him a visa to visit his alma 
mater. When I found out about it, I literally went through the 
roof and I introduced a resolution which went through the 
Subcommittee, the Full Committee, and then the House, and I 
believe unanimously was approved. President Lee visited 
Cornell, received his degree, and the world is still spinning 
around.
    Now, this was a crisis that was not of President Lee's 
making. As a distinguished graduate of a distinguished American 
university, he was offered an opportunity to give a speech, and 
he took full advantage of it.
    The current crisis is, to some extent, of his making, and 
while I think he stated in terms of substance a reality, it, 
nevertheless, is important for President Lee and our friends in 
Taiwan to clearly understand that if they want to continue to 
enjoy the support they receive from the Congress and from the 
Administration, they have to display a degree of self-imposed 
responsibility, which was clearly not present in this instance.
    So I think it is critical for all of us at all times in 
this very nebulous, amorphous, difficult to define situation, 
where Taiwan is clearly a country with its own foreign policy, 
with its own internal democratic political system, and with its 
enormous economic success, to show some degree of restraint in 
stating things which, while true, may not necessarily serve any 
cause by publicly being repeated.
    At a more fundamental level, it is extremely important for 
us to realize that our commitment to Taiwan's security is 
unshakeable, and the people in Beijing better clearly 
understand this. We are committed to Taiwan's territorial 
integrity. We are committed for the people of Taiwan to 
continue to be able to live in a free, open, democratic 
society. This is a fundamental commitment which no degree of 
trashing the American embassy in Beijing will undo.
    My hope is that this eventual one-China evolution, namely 
the merger of two democratic entities, will unfold at least in 
the lifetime of some of us, but we are committed, without any 
reservation, to insisting, irrevocably, that changes in the 
relations between Taiwan and mainland China be undertaken by 
peaceful, democratic dialog, and military threats have no room 
whatever. They are unacceptable, and they are 
counterproductive.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos. The Chairman of the 
Committee, Mr. Gilman, is recognized.
    Mr. Gilman. Thank you, Mr. Chairman. I want to commend the 
Chairman for holding what I consider to be a very timely 
hearing with regard to the situation across the Taiwan Strait 
and H.R. 1838, the Taiwan Security Enhancement Act, that was 
introduced in the House by Mr. Delay.
    Many of us in the Congress are increasingly concerned about 
China's military modernization, by its refusal to renounce the 
use of force against Taiwan, about its overwrought saber 
rattling and the deleterious effect it has on regional 
stability. Our nation should without question continue to 
steadfastly continue to meet its security commitments to Taipei 
as stipulated in the 1979 Taiwan Relations Act.
    Some analysts have characterized our nation's Taiwan policy 
as a strategic ambiguity. Any failure to provide for Taiwan's 
legitimate defense needs could lead to Beijing's 
misunderstanding of America's interests, could foster 
misperceptions of Taiwanese vulnerability, could increase the 
likelihood of Chinese miscalculation. It could lead to conflict 
with our Nation over its adventurism. Ensuring and enhancing 
Taiwan's ability to defend itself increases the prospects for 
continued peace and stability in Northeast Asia and supports 
our own national interests.
    Accordingly, Mr. Chairman, I fully support this 
legislation's efforts to enhance Taiwan's self-defense 
capability, and I look forward to the testimony of our 
distinguished witnesses. I am cosponsor of the bill, it has an 
impressive array of bipartisan supporters, and I hope that we 
can consider it before our Committee at an early date.
    Thank you, Mr. Chairman, for bringing this issue before us 
at this timely moment.
    Mr. Bereuter. Thank you for your timely statement. We will 
place your entire remarks in the record, but I also would like 
the cooperation to trying to move to our witnesses and 
questions. We will go to the Democratic side, Mr. Ackerman from 
New York.
    Mr. Ackerman. Thank you, Mr. Chairman. The Taiwan Relations 
Act for 20 years has provided the framework for our relations 
with Taiwan.
    TRA along with our 5 mutual defense treaties in the region 
has also contributed to the peace, stability, and security of 
East Asia. Clearly the TRA envisions that the United States 
will continue to play a role in Taiwan security as Taiwan and 
the People's Republic of China pursue a resolution to the 
question of reunification. Against this policy backdrop, we 
find ourselves again in the midst of a serious tension across 
the Taiwan Strait. President Lee Teng-hui's suggestion that 
cross-strait relations should be conducted as a special 
``state-to-state relationship'' and the predictable outrage 
from the People's Republic of China has again raised tensions 
in the region and heightened concern that the PRC might respond 
militarily. On this question the United States must be clear. 
Only peaceful means should be used to resolve the dispute 
between the PRC and Taiwan. But the United States must be 
equally clear that we will respond to armed aggression against 
Taiwan.
    Mr. Chairman, I would urge the PRC not to overreact to 
President Lee's statements and to review them in the contact of 
Taiwan's domestic political debate, the audience for which they 
were mainly intended. Similarly, Mr. Chairman, I would urge 
caution among our colleagues as we examine the Taiwan Security 
Enhancement Act.
    I support the U.S. obligation to, as is written, provide 
Taiwan with arms of a defensive character, but I have also 
always believed that it was a better strategy not to tell your 
adversary exactly what you were going to do. I think strategic 
ambiguity has served us reasonably well in East Asia. I believe 
that the listing in the statute of specific weapon systems that 
we will provide to Taiwan is profoundly bad policy. China's 
continued refusal to renounce the use of force as a solution to 
reunification requires the United States to have a more 
vigorous military exchange with Taiwan, and the Congress should 
be involved to a greater extent in the review of Taiwan's 
defense needs. I hope the Administration will take that 
admonition to heart.
    I thank you, Mr. Chairman, and I look forward to the 
distinguished witnesses who will be brought before us.
    Mr. Bereuter. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. I would like to submit my statement, and 
I would like to associate myself with the statement made by the 
distinguished Minority Member of the Subcommittee, Mr. Lantos.
    [The information referred appears in the appendix.]
    Mr. Bereuter. Thank you. The gentleman from California.
    Mr. Rohrabacher. I will try to be brief, Mr. Chairman. I 
don't think strategic ambiguity serves this country well at 
all. I think the communist Chinese regime in Beijing needs to 
know exactly where we are coming from. And, in case they have 
not surmised it, the United States of America will not tolerate 
the use of force or violence against Taiwan by the People's 
Republic of China in Beijing. And if they use force or violence 
against Taiwan, which is a democratically elected government in 
Taiwan, the United States will use military force and the 
people of our country will support that use of military force 
in order to back up those people who believe in democracy and 
are trying to have an elected government on the island of 
Taiwan. There should be no ambiguity about that, and all of our 
treaty obligations with Taiwan and the People's Republic of 
China permit us to sell defensive weapons to the people of 
Taiwan so they can defend themselves. There should be no 
ambiguity or misunderstanding about that.
    We assert our right through treaty obligation and 
international rights as a country to sell defensive weapons to 
the people of Taiwan in order to deter military action against 
them by a communist dictatorship on the mainland of China. 
There is no moral equivalency between democratically elected 
governments and dictatorship, there is no strategic ambiguity 
about our position or what position the people of the United 
States will support when it comes to combating that type of 
aggression.
    Unfortunately, I noticed in a recent meeting between our 
President and the leader of the People's Republic of China, the 
day before that meeting communist China held large military 
landing drills on the coastal areas directly opposite Taiwan 
and where thousands of PLA and militia personnel simulated 
landing on a well-defended coastal area. This is the type of 
coercion that you get from bullies, and either we stand strong 
and let the bullies know where we are coming from, we may have 
to face some type of action that we would not have to face 
otherwise if we were strong and put forth a determined 
position.
    With that I thank the Chairman.
    Mr. Bereuter. I thank the gentleman. Dr. Shirk and Dr. 
Campbell, would you come to the table. The distinguished 
witnesses from the Administration were introduced just a few 
minutes ago. I would like to call upon Dr. Shirk first. You may 
proceed as you wish.

 STATEMENT OF DR. SUSAN SHIRK, DEPUTY ASSISTANT SECRETARY FOR 
                 EAST ASIAN AND PACIFIC AFFAIRS

    Dr. Shirk. Thank you very much, Mr. Chairman. It is a 
pleasure to be here with you and the Committee Members again to 
talk about Taiwan security and how to best enhance it.
    I will submit my written statement for the record. I would 
like to give a brief summary here highlighting two aspects: 
First of all, what the Administration has done in response to 
the increase in cross-strait tension since July as guided by 
the Taiwan Relations Act. Second, I would like to address the 
central question that you raised in your own introductory 
remarks which is: will this proposed legislation, clearly 
intended to enhance the security of Taiwan, actually do that or 
will it have the opposite effect? I will express the 
Administration position that indeed we believe it would have a 
detrimental rather than enhancing effect.
    Let me start off by saying that since the increase in 
cross-strait tension in July, the United States has responded 
with consistent public and private statements in an effort to 
calm tensions and encourage a peaceful resolution of the 
dispute. All of our public and private statements have been 
steady and consistent and designed to make clear that our own 
policies are unchanged. That means that our own one-China 
policy is unchanged, that we have an abiding interest that 
there be a peaceful approach by both sides to resolving 
differences, and that we believe that face-to-face dialog is 
the best way for those differences to be peacefully resolved.
    We have made these three pillars of our policy very, very 
clear, both in our private communications with the two sides 
and in our public statements as well. The President articulated 
this in a telephone conversation with Jiang Zemin and in a 
White House press conference. We sent Richard Bush and Stanley 
Roth, both former employees of this Committee, to both sides to 
listen to the leaders, to reiterate U.S. policies and to urge 
both sides to undertake flexible statesman-like efforts in 
order to preserve the possibility of dialog, which we believe 
is the best means for peaceful resolution.
    When President Clinton met President Jiang in Auckland last 
week, the message again was very clear and consistent. The 
Secretary of State also met with her counterpart at the same 
time and sent the same message. In other words, we made clear 
our continued commitment to a one-China policy, our insistence 
on the peaceful resolution of differences and on the value of 
dialogue.
    The President and the Secretary urged China to avoid any 
militarization of the dispute that might risk accidents or 
miscalculations. President Clinton told President Jiang that 
there would be grave consequences here in the U.S. if China 
resorted to military force. The message was clear and 
consistent.
    Now, where does this leave us today? There has been no sign 
of imminent hostilities, but as a number of Committee Members 
have noted, PRC military activity has been somewhat elevated 
since July, and the rhetoric is quite bellicose. The risk of 
accident or miscalculation and escalation remains. The visit of 
Wang Daohan to Taiwan that I think we all hope will happen has 
not been officially canceled, but the PRC has said that 
retraction of President Lee's state-to-state formulation is a 
precondition for that visit to occur. We certainly hope that 
the two sides can find a way for this meeting to take place. It 
is precisely when tensions are high that dialogue is most 
needed.
    In the meantime we have also been reminding the two sides 
that they need to take steps to reduce the risk of accidents as 
their Air Forces continue their activities over the Strait.
    Now, this is the context in which we must consider the 
proposals included in the Taiwan Security Enhancement Act.
    I recognize that the authors of this bill and the Members 
who support it believe that this legislation will help us honor 
our commitment to the people of Taiwan that we all feel very 
strongly about. Nonetheless, Mr. Chairman, and I say it with 
all due respect to the supporters of this bill, the 
Administration believes that this legislation could have 
serious unintended negative consequences that could weaken 
Taiwan security and impinge on our own security interests in 
the region. These consequences arise because this legislation 
will be interpreted by Taiwan and by the PRC as a significant 
revision of the Taiwan Relations Act, which has successfully 
governed the U.S. role in cross-strait issues for 20 years. It 
will be seen as an effort to reverse our commitment to an 
unofficial relationship and to recreate in its place a formal 
military relationship with Taiwan.
    Several provisions of the bill lead to this perception. For 
example, the mandate of operational communication links between 
the military headquarters of Taiwan and the United States in 
Hawaii, a linkage more indicative of formal military ties than 
an unofficial relationship; also the requirement that the 
Secretary of Defense permit the travel of flag rank officers to 
Taiwan. Avoiding such senior military travel has helped this 
and previous Administrations of both parties to have successful 
working-level contacts while avoiding the cloak of officiality 
that could be a hindrance to effective exchange.
    Equally troubling is the specific authorization that the 
U.S. provide ballistic missile defense. As you know, Mr. 
Chairman, this Administration as a matter of policy does not 
preclude the provision of TMD to Taiwan in the future, but to 
make this determination now, as the bill suggests we should, 
when the systems are still under development and not even yet 
available to U.S. forces certainly is more symbolism than 
substance. It is certainly premature.
    By nature, providing these systems to Taiwan would be a 
decision with significant implications for Taiwan security, 
regional security, and the security of the United States. That 
decision will need to be made, as we make all decisions about 
arms transfers to Taiwan, on the basis of Taiwan's actual 
defensive needs and the context of regional security at that 
time.
    We are also talking with the PRC about its own missile 
deployments in a very direct way, and we are telling the PRC 
that its interests would be best advanced by a decision to 
check or scale back its own missile deployments opposite 
Taiwan.
    While I can't tell you how successful we will be, and 
certainly this is an effort that has to be undertaken over a 
period of time, I can assure you that enactment of the language 
in this proposed legislation will reduce the incentives for the 
PRC to show restraint and make it harder rather than easier for 
us to succeed.
    Mr. Chairman, the bill also puts Congress on record as 
endorsing the sales of specific weapons, as Members have 
previously noted, including several which the Administration 
has denied because they didn't meet the criteria of strictly 
defensive weaponry in the TRA.
    We see a danger that the bill could be the first step in a 
process whereby Congress would attempt to mandate specific arms 
sales, thereby abrogating the longstanding and effective arms 
sale process that now exists.
    We also believe, and I can get into this in response to 
questions if you would like, that certain elements of the bill 
raise constitutional concerns having to do with the President's 
authority as Commander in Chief.
    So as we consider the potentially serious problems with the 
proposed legislation, Mr. Chairman, I think we really need to 
step back and say. ``Do we need this act? Has the Taiwan 
Relations Act failed in assisting Taiwan in its own security 
and stability? '' And it seems to me that the track record of 
four Administrations says no. In fact, it has been a very 
impressive success.
    It has been a great success in creating a stable, secure 
environment for Taiwan to develop into the kind of strong 
market economy and democracy that it is today. It is creating a 
context for extensive economic ties between the two sides which 
certainly are a force for peace to develop. And it has created 
a shared prosperity between the PRC and Taiwan. And of course 
that has all been possible in part because Taiwan has been 
able, with the support of the United States under the TRA, to 
strengthen its self-defense capability. The United States has 
provided a wide range of defensive military equipment to 
Taiwan, as is detailed in my written testimony.
    The TRA has worked. Taiwan has never had a stronger defense 
capability as it has today. Because of the success of the TRA, 
we believe that the Taiwan Security Enhancement Act is not 
needed and that it will produce no benefits for Taiwan security 
and in fact, especially given the context of a tense 
relationship across the Strait today, could aggravate cross-
strait problems and be detrimental to Taiwan security.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Shirk appears in the 
appendix.]
    Mr. Bereuter. Thank you, Dr. Shirk. Dr. Campbell, you may 
proceed.

STATEMENT OF DR. KURT CAMPBELL, DEPUTY ASSISTANT SECRETARY FOR 
      ASIA AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Dr. Campbell. Thank you, Mr. Bereuter, and thank you for 
inviting us to speak about your very important proceedings 
about cross-strait relations. Let me associate myself with both 
Dr. Shirk's and the remarks made by Senator Thomas made earlier 
today.
    I would like to say a couple of words about the issue that 
you were talking about before this hearing convened about East 
Timor because I think it is extraordinarily important, and we 
will talk with you about this later today and later this week.
    As you know, Mr. Chairman, late last night the United 
Nations Security Council approved an Australian-led force to go 
into East Timor almost immediately. As we speak, Australian 
troops in Darwin are preparing to move to East Timor in the 
next day or so. They have come to us and explained in 
significant detail the nature of their involvement. It is the 
largest involvement of Australian armed forces since the Second 
World War.
    When they talk about it, they talk about it in terms of the 
greatest national security challenge that they have faced in 50 
years. They talk about it like they talk about Coral Sea.
    They have come to us and spoken to us about some specific, 
unique potential contributions that they hope that the United 
States would be prepared to make in the realm of logistics, 
tactical transport, and some other areas associated with their 
force. I want to say from my perspective as we look back over 
the last 50 years, every single time we have asked Australians 
for assistance in security challenges, they have been there for 
us. This is the first time that they have come to us and said 
that they need some help. I think their request is appropriate. 
The way that I define ally means we need to be there for them.
    The Department will be up to describe carefully what we 
think are prudent steps that we are prepared to take to support 
our friends in Australia in Timor.
    Mr. Bereuter. Dr. Campbell, I think you are going to be 
able to expect a positive bipartisan response.
    Dr. Campbell. We appreciate that and so do the Australians, 
Mr. Chairman.
    Let me say a few words about the subject before us today.
    First of all, I would judge, and I think that most 
observers would judge, the Taiwan Relations Act as the most 
important and significant incidence of legislative leadership 
in foreign policy in our history. I think it has been 
enormously successful in sustaining not only peace and 
stability across the dynamic Taiwan Strait, but in securing 
American leadership in that region. I think that leadership has 
a critical ingredient in peace and stability.
    If you look at the Taiwan Relations Act in its entirety, it 
gives us every necessary legal authority to do our job. Over 
the last several years, succeeding and successive 
Administrations have taken every advantage of this authority. I 
think, as Dr. Shirk has indicated, by the provision of 
defensive weaponry and other forms of dialog we have made clear 
our commitment to the maintenance of peace and stability.
    It underscores three key commitments that the United States 
stands by. Not only is the Taiwan Relations Act the law of our 
land, it is also excellent policy and we follow it not only 
because it is the law but because we think that it is in our 
national interest.
    The first requirement of the Taiwan Relations Act is for us 
to continually judge the security environment of the Taiwan 
Relations Act, to consult with Congress and also to inform 
friends in Taiwan. We have obviously been involved with that 
over the last several weeks and months, as Dr. Shirk indicated.
    The second is to provide appropriate defensive weaponry 
where necessary to Taiwan. As I indicated, this Administration 
and previous Administrations have stood up and provided what we 
think are appropriate, prudent but also extensive military 
sales to Taiwan to meet their legitimate defensive needs.
    Third, of course, what is often forgotten or overlooked in 
the Taiwan Relations Act is the request and requirement that 
the United States maintain forces available to respond should 
there be a challenge to the peaceful status quo. And if you 
listen and look carefully at the provisions of the East Asian 
strategy report and the statements of the President of the 
United States, we have for several years maintained 100,000 
forces for deployment to the Asian Pacific region to be able to 
respond to potential challenges like this.
    When we look at the situation on the ground and in the air 
and on the water in the Taiwan Strait over the last several 
months, I think we see a couple of areas of concern when it 
comes to the People's Republic of China and the People's 
Liberation Army. I will put them in three categories. First, 
generally speaking, in terms of deployments and procurements--
and I think what we have seen of course over the last several 
years are China's decisions to purchase sophisticated weaponry 
from Russia and also developing their own high-tech 
capabilities--China is becoming a more modern military. We have 
to watch that closely into the next century.
    The second areas are both exercises which are provocative 
on occasion and also activities. Here I think the activities 
that we have seen both by the Taiwan Air Force and the PLA Air 
Force over the last several weeks and months have been 
provocative and unhelpful, and we are very concerned that these 
activities have the potential for causing an accident or an 
unintended event. It is not clear whether that would trigger a 
larger confrontation. My own sense is that is unlikely. 
However, those kinds of activities are imprudent and they send 
the wrong messages.
    Third is the area that I am most troubled about is that in 
the last year or so we have begun to see a change in the 
strategic thinking not only in the PLA but among much of the 
intelligentsia about strategic issues. You see increasingly in 
Chinese military writing and other strategic literature 
references to Taiwan in a very hostile way, thinking of Taiwan 
as a military target. I think that direction, that kind of 
thinking about Taiwan, sends exactly and precisely the wrong 
message to the people of Taipei. One of the things that we 
always urge in our discussions with the PLA and with the PRC is 
what is necessary is trying to develop dialogue and promoting 
confidence. These actions are sending precisely the opposite 
signal and, in fact, degrade confidence, undermine trust, and 
engender very real concern among the people of Taiwan.
    Let me just say very quickly about our robust unofficial 
relationship. We have provided, as I said, I think very prudent 
but extensive hardware to Taiwan over the years in every area. 
We can talk about that in my answers. In my written testimony, 
I detail that very clearly.
    In the last few years we have developed more human contacts 
that are prudent in the unofficial channels that we have. These 
are designed to build what we call software, greater dialogue 
on critical security challenges that Taiwan faces.
    Let me just close by saying that I take very much to heart 
the statement that Mr. Ackerman has made and I take that to 
heart myself personally. I think we have to do a better job in 
dialogue and discussion with Congress about cross-strait 
dynamic situations, and I intend to myself work harder at that 
in the coming months.
    I must say, however, that the Taiwan Relations Act has been 
superb legislation. I think not only is the Taiwan Security 
Enhancement Act unnecessary, but it also is potentially 
counterproductive, potentially even dangerous given the very 
delicate situation that we are facing in the Taiwan Straits. 
Frankly, I share many of the sentiments of the authors of this 
bill, but I also believe that we are doing what is necessary to 
meet the legitimate security concerns of the democratic 
government of Taiwan.
    And with that, I think I will conclude, Mr. Chairman. And 
of course Dr. Shirk and myself will be happy to address any 
questions.
    [The prepared statement of Dr. Campbell appears in the 
appendix.]
    Mr. Bereuter. Thank you very much, Dr. Campbell.
    I recall in 1979, my first year in Congress, how the Carter 
Administration opposed the Taiwan Relations Act in many ways 
and how, in fact, it is the product of the initiatives of the 
Democratically-controlled Congress, but with strong Republican 
bipartisan effort. If it is to be commended, as I think it 
should, it has done its job remarkably well. It had a very 
heavy Congressional involvement despite being contrary to the 
views of the Administration at that time.
    Now I am faced with a situation where I have the Chairman 
of the Subcommittee and others in the leadership, including Mr. 
DeLay and Mr. Cox, are sponsoring or cosponsoring the 
legislation. Democratic Members like Mr. Deutsch, Mr. Andrews, 
and Mrs. Lowey were initial cosponsors, and others have been 
added on both sides of the aisle, including others on this 
Committee such as Mr. Rohrabacher. Senator Thomas asked to come 
and testify today. He is not here at my request, but he is 
certainly entitled to present his view. He was quite candid and 
very specific, and his written statement even more so.
    I think it is important first of all that we have this 
hearing. We looked carefully at the concerns expressed and at 
outright objections to it.
    From you, Dr. Campbell, I would hope that you could give me 
some very specific responses to questions that I would like to 
provide you on sections 3, 4 and 5, which will perhaps answer 
some of the concerns of the authors of this legislation as 
quickly as possible. I will share your responses with the 
Subcommittee, and the Committee, and others, including the 
authors of the legislation. That would be helpful.
    I think also it is important that we see if we can arrange 
for the Administration to meet with the people most interested 
in this subject area, including Members of this Subcommittee 
and Committee and the authors, in a very candid, closed 
classified setting so that Members can fully examine and 
understand the depth and details of our relationship with 
Taiwan now.
    I do not think that has happened despite your efforts and 
the efforts of others on the Hill. We can do that better, and 
that might be helpful. All of these Members, as I am sure you 
are aware and would agree with me, are not intending to create 
serious unintended negative comments or impacts upon Taiwan 
security.
    I would say, however, that there is a great deal of 
uneasiness on the Members of the House and, undoubtedly, the 
Senate as a result of the President's visit to China and of 
some statements that were made at that time.
    I think also uneasiness has been triggered by the 
revelations of the Cox Committee, on which I serve, about the 
depth of the success of espionage that the Chinese conducted 
against the Department of Energy weapons laboratories and some 
of the subsequent comments that some of their officials have 
made about the neutron bomb and its relevance to Taiwan. All of 
these things together (and others) are creating some concern 
about Taiwan-American relations and about the potential 
conflict between the PRC and Taiwan.
    I want to tell you what I think is behind the various 
levels of concern and how we might begin to approach some of 
those issues.
    At this point, I will simply desist and not ask more 
specific questions.
    If you have any response to what I have said, I would 
welcome it.
    Dr. Campbell. First of all, I appreciate very much the 
comments, Mr. Chairman. I think the most helpful thing that I 
can imagine is the opportunity to come up and brief Members in 
a highly classified environment on some of the issues that you 
have raised. I think that would be extraordinarily helpful. 
Thank you.
    Dr. Shirk. I might add that Dr. Campbell and I have been as 
a team talking with staff on the Hill from time to time about 
these issues, and we certainly would welcome the chance to talk 
with Members as well, in the kind of setting that you have 
described. That would be very constructive.
    Mr. Bereuter. Thank you. In regular order, we will proceed 
with the 5 minute question period. We will turn first to Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Have there been 
any recent communications from the People's Republic of China 
or Taiwan to the Administration, any real concerns about the 
exercises or whatever, the buildup that China has been making 
in the past couple of weeks or even months?
    Dr. Shirk. No, there have not been. In fact, they have gone 
to great pains to state publicly that they don't see any 
military risks inherent in the situation at the moment; that 
they feel quite confident that despite the rhetorical saber 
rattling, there is nothing extraordinary going on and no 
preparations for actual aggression.
    Dr. Campbell. I agree with that. You see, of course, where 
this potentially leads. Some senior officials in Taiwan say to 
try to reassure their public, don't worry, we see nothing of 
concern in the Taiwan Strait. The PRC, who is trying to send a 
message that they are very concerned about developments that 
Taiwan has taken politically, think gee, we have to make sure 
that we have their attention.
    I think it is fair to say that we have had communications 
with the Taiwanese about developments. We have seen actions 
that are, I think as the Chairman indicated, unhelpful and 
provocative, and we have urged both sides to not do this in 
this environment and to try to get back to the table.
    Most of the activities that we have seen, the exercises, 
the flights, some of the statements, are meant to signal in 
this case. I think it is fair to say that in 1996 there was a 
time, a couple of days here and there, where we were uncertain 
what exactly was about to develop. We have not seen any of 
those situations now, Congressman. We don't see--we have not 
seen any indication of anything other than an attempt to 
signal.
    Mr. Faleomavaega. Has there been any indications from the 
Taiwanese officials since the introduction of this legislation 
in May in support of this proposed bill?
    Dr. Shirk. Not explicitly. In fact, we are, of course, 
always very interested in their views of whether or not our 
unofficial relationship under the Taiwan Relations Act is 
working well from their perspective. Although certain requests 
they have made have been denied, and some of the things that we 
have allowed they have chosen not to buy, but by and large, 
what we hear from them is that they feel quite positive about 
our unofficial defense relationship with them.
    Mr. Faleomavaega. I don't think that my question was clear. 
Let me try again.
    Dr. Campbell. I think I understand your question. Let me 
try to answer it.
    First of all, I think what Dr. Shirk said is exactly right. 
Even among senior Taiwan military officials, the people that I 
work with the most in this context, there is I think a 
relatively sophisticated appreciation that their ultimate 
security cannot be purchased through simply the provision of 
weapons.
    It would be fair to say that the military, like many 
militaries, is a relatively conservative institution. They want 
to be loyal to the political establishment, and I think some of 
the statements, some of the developments in Taiwan, some of the 
maneuverings have left them concerned. They are not exactly 
sure about the security environment. They feel the military is 
very strongly supportive of our unofficial relationship, and I 
don't think they are generally in favor of unnecessarily 
provocative actions or statements.
    I think to the extent that they have spoken about this 
particular bill, what they have said is that they share many of 
the sentiments of the authors. With me at least they have not 
talked directly about the particulars.
    Mr. Faleomavaega. The point that I want to make, Mr. 
Secretary, in the 11 years that I have been a Member of this 
Committee, I don't think that my position has ever changed 
about the security of Taiwan. But the problem here that I have 
is that it makes me feel like maybe we are lessening or there 
is some deficiency in our current relationship with Taiwan that 
got this proposed bill on the make.
    So that is why I wanted to ask you if there has been 
anything that I am not aware of that has given the impression 
to my good friend, the gentleman from Texas, to propose the 
bill. Are we deficient in our current relationship with Taiwan 
if there is a threat tomorrow?
    Dr. Campbell. We don't think that there is a deficiency and 
in our discussions, and we have had many discussions with 
Taiwan officials, both civilian and military, they have not led 
me or others, I believe, to think that there is a deficiency.
    However, as in many countries, including Asian countries, I 
am not sure that they would necessarily tell us if there were.
    As important as our dialogues are, and I think they are 
legitimate and very strong, it is possible that there are other 
sources of communication. However, I think we feel very 
strongly that we have the kind of relationship that is 
necessary. Again, in our conversations, they have been very 
strongly supportive of the TRA and indeed suggested that this 
other legislation is unnecessary.
    Mr. Faleomavaega. Some of our colleagues have asked me 
about this bill, but I responded by saying that I wanted to 
check with you and your basic position. Certainly you are more 
knowledgeable than I in terms of having briefings that a lot of 
times we are unable to accompany you, and I just wanted to get 
your wisdom and understanding if there has been a problem over 
the past several months as to why we end up with a bill like 
this.
    Mr. Bereuter. I thank the gentleman from America-Samoa. He 
heard my discussion about some of the genesis of the 
uneasiness, and I think the hearing is helpful. It is going to 
help me make up my mind. I think a very important and closed 
briefing could follow.
    The gentleman from California is recognized for 5 minutes.
    Mr. Rohrabacher. Dr. Campbell, let me get this straight. 
Your testimony to us today is that high level officials in 
Taiwan are telling you that they don't want these weapons and 
they don't want us to sell them these weapons? Is that what you 
are telling us?
    Dr. Campbell. Having been before this Committee before, I 
am always worried when you begin a question with ``let me get 
this straight.'' usually you are about to be on the hot seat.
    Mr. Rohrabacher. You are already on the hot seat.
    Dr. Campbell. I really do appreciate that.
    Mr. Rohrabacher. So let's get to the question.
    Dr. Campbell. I will.
    Let me say that our Taiwan military friends always ask for 
more in terms of military hardware. Always. I think they leave 
our meetings with two sentiments--they are partially satisfied 
and partially dissatisfied. My sense is that they are more 
partially satisfied, but again those are my discussions with 
them.
    Mr. Rohrabacher. It would take a real diplomat to 
understand what you just said.
    Let's get to the question. Are you testifying that high 
level officials in Taiwan have told you that they don't want to 
buy these weapon systems?
    Dr. Campbell. No. I think the bill is about more than 
simply weapon systems. When you talk about weapon systems per 
se, yes, they always want more. That is a statement of fact.
    Mr. Rohrabacher. That is cool. I thought you were 
testifying--I don't know how I got that impression that some 
high level people in Taiwan didn't really want these weapons 
because every time I have been over there, that is what they 
want.
    Dr. Campbell. Congressman, another point, there are also 
times that they ask for systems that we think are important and 
we say yes, and then they don't buy them. And more recently, we 
are in an environment where we are telling them that there are 
things that they need to purchase because we have looked 
carefully at their armed forces that they are reluctant to do. 
When you talk about this, this is not us saying ``No, no, no.'' 
It is more of a dialogue.
    Mr. Rohrabacher. Let's go to the ``no, no, no'' part. 
Aren't we saying ``no, no, no'' when they want to buy 
submarines and Aegis systems? Don't the Chinese have this 
missile buildup on the coastline, and they don't have a 64 to 4 
advantage on the Taiwanese? And aren't we saying ``no, no, no'' 
to the elected government rather than the dictatorship?
    Dr. Campbell. You have raised an important issue. Let me 
try to handle both of them if I can.
    First of all, in terms of anti-submarine warfare, we think 
that mission is among the most important missions that the 
Taiwan military faces, and we have sold an array of military 
equipment, to include helicopters, ships, and airplanes that 
are designed to address the submarine threat. You are correct, 
Congressman Rohrabacher, that we have not sold submarines. 
However, we believe that the mission is critical, and we have 
provided a lot of time and a lot of effort to address this 
particular issue.
    Now, the second point that you raise about Aegis, I can 
address publicly because it has been in the public. We actually 
agreed and urged Taiwan in 1992 to purchase Aegis. We sold 
licenses. We went out publicly. We worked with them on this, 
and they decided not to go ahead with this.
    Mr. Rohrabacher. So we are not opposed to selling Aegis 
systems to Taiwan?
    Dr. Campbell. I am not going to answer that question 
specifically because our policy is an ongoing discussion with 
the Taiwan government.
    Mr. Rohrabacher. All right. Well, I am not getting very 
definitive answers here. This is sort of like the strategic 
ambiguity right here in Congress.
    Let me ask you this----
    Dr. Campbell. What I would suggest is that in the private 
session that the Chairman has spoken about, we can have a 
useful discussion about Aegis.
    Mr. Rohrabacher. We have had too much ambiguity in our 
policy. When you are dealing with a bully, the bully has to 
know the price he is going to pay if he starts a fight. We are 
giving the wrong signals with all of this ambiguity. Someone 
should not have to translate answers when you are talking 
English, and the people on the other side they have to 
translate into Chinese. They don't even know what the position 
you are talking about and what the position of the 
Administration is.
    We have an unelected communist dictatorship with the 
mainland of China, and you have a country that is struggling to 
be democratic on Taiwan. Unfortunately, it seems to me what we 
have here is an Administration that is trying to base its 
policy on some sort of moral equivalency between the two 
regimes. You are condemning the two sides when it is only the 
communist dictatorship that is threatening military action.
    Listening to your testimony, both sides this and both sides 
that. It is not both sides that is creating the threat of war, 
it is the communist Chinese belligerents and the fact is that 
if they had a democratic government on the mainland, they would 
not have a problem right now because the people of Taiwan would 
not be so afraid of this talk about reunification.
    I will tell you, if we continue to have this strategic 
ambiguity that you are talking about, we are going to lead this 
United States of America into a conflict because the bully is 
not going to know what we are willing to fight for.
    Mr. Bereuter. I thank the gentleman from California for his 
comments.
    I will interject by saying that since Nebraska is very 
close to the coast, I follow submarine issues. [Laughter.] Of 
course we do not produce any diesel submarines in the United 
States and have not for years. Germany and Sweden do. It is 
always interesting that people want the United States to sell 
diesel subs, and we simply do not produce them. That might 
upset our nuclear-powered submarine Navy.
    The gentleman from Louisiana, who is a little closer to the 
shore.
    Mr. Cooksey. Thank you, Mr. Chairman.
    I have several questions and would prefer brief answers. In 
this situation it is obvious that all of the parties involved 
are Chinese. There is not a racial issue or ethnic issue like 
we have had to deal with that we have sent our people out to. 
But the differences are political, and they have been affected 
by different political models and economic models. It appears 
to me that a lot of the problem gets back to the fact that 
these differences are articulated by politicians.
    Do you feel that some of the problems that are going on 
right now are similar to some of the problems that we have in 
this city? Where we have people of different political parties 
throwing unnecessary bombs at each other, verbal bombs? In fact 
this Committee met earlier this morning, and I thought I was 
going to have to separate the Chairman and the Ranking Member. 
Do you feel that some of this is just politics or the 
politicians?
    Dr. Shirk. I think that the problems across the Strait 
between the PRC and Taiwan reflect very deep rooted nationalist 
sentiment. It is not simply a matter of domestic politics on 
the two sides.
    Mr. Cooksey. There is an election going on next year 
between the KMT and the DPP, and I can't help but feel that is 
a factor.
    Dr. Campbell, let me ask you a question. What have you told 
the people of Taiwan that they need that they in fact have not 
bought? I am quoting your statement from a few moments ago.
    Dr. Campbell. If I may, Congressman, I would like very much 
to give a very detailed lay down on some specific military 
issues that require going into some classified material. So 
because the Chairman has offered the opportunity for that kind 
of a setting, what I would like to do in that setting is first 
of all lay down what we think are the security challenges 
specifically now and what we speculate over the next 10 years, 
the kinds of discussions that we have had with our Taiwan 
friends, the kinds of communications that we have had with the 
PLA and the PRC about our concerns. I would like to go through 
very specifically what kind of defensive technologies, systems 
that we have provided to the Taiwanese.
    Mr. Cooksey. You will do that in another session?
    Dr. Campbell. I am available to come up at any time to 
brief in any detail on these issues.
    Mr. Cooksey. I was intrigued by the statement that you made 
that we have advised them to get some weapon systems and they 
have turned them down.
    Dr. Campbell. I will tell you that Taiwan is a small place. 
Taiwan has very real security needs. It also has a limited 
budget. And if you look over a period of about 10 years, first 
of all the amount of weaponry that has been approved is much, 
much larger than the actual kinds of weaponry that were 
purchased.
    In addition, because there has been a bit of cultural 
change in the way that we try to interact, in the last few 
years we have tried to be more specific about areas that we 
think that Taiwan needs to change and adapt. We see some of 
that adaptation, but it is very slow.
    Mr. Cooksey. In Taiwan?
    Dr. Campbell. In Taiwan.
    Mr. Cooksey. But it is ahead of the PRC? They were both 
dictatorships 10 years ago, is that correct?
    Dr. Campbell. When you say ahead of, I think in terms of 
political developments. As the Congressman has indicated, 
Taiwan has I think one of the most remarkable and exciting 
democracies in the world. Their military organizations still 
have, I think, areas where reform and change are needed. You 
have a system that is still very much dominated by the Army. I 
think it doesn't take--yes, that is in Taiwan. It does not take 
a rocket scientist to understand that in the coming arena of 
21st century warfare for Taiwan or as it thinks about potential 
challenges, it is going to be more naval and air issues, and 
those changes are happening.
    We have had in the last number of years a number of 
important reforms, like Goldwater-Nichols, which changed the 
way that our military operations work together and work with 
the civilian apparatus. Taiwan has not had any of those things.
    In our discussion I would like to talk about some of the 
politics, the military politics, not larger politics, but the 
military politics make this an interesting proposition.
    Mr. Bereuter. The time of the gentleman has expired. I 
think that I am going to try to schedule that session next 
week, including the prime sponsors of the legislation and the 
Subcommittee. I think it will be very helpful. We will try to 
make it the kind of environment in which we can have the 
optimal discussion.
    Dr. Campbell. We will be available next week.
    Mr. Bereuter. Thank you very much for your testimony. We 
appreciate your help to the Subcommittee. We now have a third 
distinguished panel. I ask that they come to the table. These 
witnesses have been introduced before, but I briefly want to 
mention their names again. Our third panel will consist of the 
Honorable Caspar Weinberger, the Honorable R. James Woolsey, 
and Dr. David Lampton.
    Gentlemen, thank you very much for your patience. We look 
forward to your testimony. Your entire statements will be made 
a part of the record.
    You may proceed as you wish. Mr. Secretary, Secretary 
Weinberger, we will turn first to you for your comments.

STATEMENT OF THE HONORABLE CASPAR WEINBERGER, CHAIRMAN, FORBES 
             MAGAZINE, FORMER SECRETARY OF DEFENSE

    Mr. Weinberger. Thank you very much. It is a great honor to 
testify before the Committee, and I am deeply conscious of that 
honor today. I had a novel and pleasant experience of hearing 
all of the statements made at the opening of the hearing from 
both sides of the aisle of the Committee, with which I found 
myself in full agreement. This euphoria faded a bit after the 
Administration witnesses, but let me try to be as helpful as I 
can and tell you some of the views that I have as to really why 
we should have a clarifying bill such as the Taiwan Security 
Enhancement Act.
    I would like to start with a point, and incidentally I do 
not have a fully written out statement, just a note or two, but 
I would supply anything that the Committee asks for later.
    I would feel that our commitments to Taiwan have not been 
made clear. We have fostered a policy and stayed with a policy, 
and I was pleased and somewhat surprised to hear the praise for 
the Taiwan Relations Act by the Administration witnesses, but 
we have fostered a policy of ambiguity. We always took the 
basic position that we understood what the People's Republic of 
China claim was. We understood their position, and we 
understood the Taiwanese position and that was as far as we 
went.
    We did in the Taiwan Relations Act say that we would regard 
any attempt to interfere or change that relationship by force 
would be viewed with the greatest consequences. That carries 
out the policy of ambiguity because that could mean actually 
anything from a proper response, military response to seeking a 
U.N. resolution. It leaves it open, and I think it is extremely 
important that the People's Republic of China understand the 
depth and the strength of our commitment as one of the classic 
means of deterrence.
    So I think that the act has been useful but has had a great 
deal of ambiguity and a great deal of difficulty. For example, 
when I was Secretary I had to meet with any officials from 
Taiwan in some country club. We were not allowed to have them 
in the Pentagon, and nonsense like that, which I think 
encourages the People's Republic of China to believe our 
commitment is not serious and discourages Taiwan from believing 
that our commitment is very serious.
    So I think the clarification of that is an extremely 
important part of the relationship.
    The ambiguity that we had relied on, to my mind, was pretty 
well shredded by President Clinton's visit to the People's 
Republic last year in which he seemed to endorse fully; rather 
than simply saying he understood, he seemed to endorse fully 
the People's Republic position on a great many items and left 
it in very considerable doubt as to whether or not we had any 
commitment of any kind of any value really left to Taiwan. The 
ambiguity was no longer there. We went way beyond saying we 
understood each other's position. We endorsed the People's 
Republic's position through his statements which I thought were 
very ill advised and probably had been made without even 
discussion with his own people.
    But the Taiwan Security Enhancement Act that we are talking 
about now would really restore those commitments and would make 
it clear that the position that had been gravely weakened by 
the President's statements was going to be restored.
    I cannot see how emphasizing to the People's Republic of 
China and to Taiwan and to the world that our commitment to 
Taiwan, should they be attacked, is absolute, is going to be in 
any way harmful to the security of Taiwan. I think that the 
deterrent capabilities that we have and that we should have are 
well-known and I think that if there is any doubt whatever that 
those deterrent capabilities would be exercised to the fullest, 
then you have encouraged the People's Republic to believe that 
we would have a response that would be far less than we should 
have, should they make any overt actions attacking or leading 
toward an attack of Taiwan, including the islands of Ma-tsu, 
Quemoy, and one of them changed its name now, but they are the 
area where that sort of activity could start.
    A number of people have said that the communique of August 
17th, 1982, basically changed our position and strengthened our 
relationship with the People's Republic and weakened our 
relationship to Taiwan.
    I would in that connection simply want to point out that a 
communique is just that, it is just a summary of talks. It can 
never change or supersede the meaning of a statute enacted by 
the Congress. A communique is ambiguous, but it does require us 
to keep on helping Taiwan maintain defensive capabilities, and 
it is the removal of some of that ambiguity that is essential 
now, now that the ambiguity we were carefully maintaining was 
stripped away by the President last year.
    Communiques are almost always written, as you know, before 
the event, so that the event is held so that the communique can 
be issued, and consequently their value I think is somewhat 
degraded as a result of that.
    Also there was no Defense Department participation in that 
communique. It appeared very suddenly on the horizon, based on 
the assumptions that the PRC would also remove and reduce their 
armaments and their forces. The PRC, of course, has not only 
done neither; it has moved in the opposite direction.
    Then I think we have to take into consideration some of the 
changes that have occurred since then, and I think China's 
changed attitude, the People's Republic changed attitude, is 
important to take in mind. They now seem to be interested in 
offensive strengths. I made two or three trips while in office 
at their request. We discussed defensive capabilities, how they 
would defend their 1800-mile long border with the then Soviet 
Union. We discussed the modernization of some of their 
defensive weapons, and we had a very good military to military 
relationship.
    They seemed to want at that time only to strengthen that 
defensive capability. Since then, they have adopted what I 
consider to be a very aggressive foreign policy in connection 
with the Spratly Islands, with dropping missiles into Taiwan 
waters before their election, adding and acquiring an 
additional nuclear and neutron bomb capability with the 
technology that was described and detailed in the very able Cox 
report. They have expressed their deep anger at our renewal of 
our Japanese-U.S. security pact, a purely defensive alliance. 
They have expressed their fury at our working with Japan and 
Taiwan on missile defense. They have had a heavy increase in 
arms and submarines facing Taiwan, and they have flown air 
patrols, certainly provocatively close to Taiwan, and keep 
doing that, and also made a certain number of noises with 
respect to the islands.
     All of that to my mind emphasizes the need for the clarity 
and strength set out in the Helms-Torricelli bill, which calls 
for lifting restrictions on arms sales to Taiwan so you don't 
have to ask whether each bullet or pistol is going to be within 
the ban or not, and certainly for ending the ban on high level 
military exchanges between the two countries and for providing 
Taiwan with key weapons systems, including theater missile 
defenses that would make it much harder for the Chinese 
military to use or even to threaten force against Taiwan.
    I would just make one closing comment, Mr. Chairman, and 
that is that President Lee's statements with regard to, two 
equal sovereign states and a state-to-state relationship, which 
we have basically attacked and which we have urged him to 
withdraw and done a number of other things that indicated to 
the People's Republic and the world that we felt that he was 
complicating the situation, simply recognizes the facts as they 
are. The forces that the PRC have created in China only 
emphasize China's aggressive intentions to win Taiwan back and 
Taiwan's needs for support. President Lee supports the 
unification when China changes, and he has been very clear 
about that for a number of years. It would seem to me that is 
established and that our attacking President Lee for making 
this sort of statement by itself expresses a partiality, a 
support for the People's Republic, that I think is incorrect 
and improper. I do think that it would be far more useful if 
President Clinton at least many times before and certainly now, 
being together with the President of China in New Zealand, if 
he had made it quite clear that we need to have from the 
People's Republic a firm agreement that there will be no attack 
on Taiwan, that there will be no attempt to gain Taiwan by 
force, and that it would be quite essential that be understood 
by the President of China, by the Taiwanese, and by the world.
    I do think that the danger is that China rather than Taiwan 
is going to misjudge our steadfastness if we persist not only 
in what was the murkiness and the ambiguity, but now if we 
persist in the feeling of condemning President Lee as opposed 
to recognizing that it is important that we make it clear that 
our commitment is to defend Taiwan and that has to be 
understood by the Chinese, and defending Taiwan would mean a 
great deal more than going to the United Nations for the 
resolution. It would mean use of appropriate force to counter 
whatever force the Chinese would exert.
    Mr. Chairman, I appreciate very much the opportunity to be 
here with you, and I would be glad to answer any questions you 
might have.
    Mr. Bereuter. Thank you, Secretary Weinberger.
    Director Woolsey, we look forward to your comments now. You 
proceed as you wish.

STATEMENT OF THE HONORABLE R. JAMES WOOLSEY, PARTNER, SHEA AND 
  GARDNER, FORMER DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman. As always, it is a 
pleasure to appear before you and before this Committee. I 
appreciate the Committee staff's indulgence in letting me speak 
from a few notes rather than submitting a prepared statement.
    I support the Taiwan Security Enhancement Act, and I 
believe that under current circumstances this package is 
generally a reasonable one. The increase in staff at the 
American Institute in Taiwan, the required Presidential report 
on Taiwan, defense requests, reassertion of the primacy of the 
TRA over the 1982 communique regarding arms sales, enhancement 
of operational training and exercises, establishment of the 
secure communications channel between the United States and 
Taiwanese military commands, and support for certain arms 
sales. I would not support mandating such sales, but some 
indication of support seems to me to be entirely appropriate.
    It does give me some pause that this list is rather 
detailed. I served as general counsel of the Senate Armed 
Services Committee for 3 years as well as serving as a 
Presidential appointee in both Democratic and Republican 
Administrations in the Navy Department, the State Department, 
and the intelligence community, and, frankly, I can teach this 
issue of Executive versus Congressional prerogatives either 
round or flat.
    I am generally of the view that the detailed implementation 
is best left to the Executive and there may be one or two 
aspects of this bill that it would be wise to compromise on. 
But I am also well aware of Lord Bryce's dictum that the United 
States Constitution in the field of foreign policy is 
essentially just an invitation to struggle. And whereas here 
the Executive branch's policy is both, in my judgment, wrong-
headed and dangerous, Congress has a duty to the country to try 
to correct it.
    The current situation--really since last spring--I believe 
continues to be a dangerous one. The PRC has sent modern 
fighter aircraft into the Straits, it has seized a Taiwanese 
ship, it has fired its new ballistic missile, the DF-31, on 
which the United States taxpayers should perhaps receive 
licensing fees. This followed last spring's stage-managed 
damage by bussed-in crowds to attack the U.S. embassy, a 
massive crackdown on the threat posed by middle-aged people who 
like to do breathing exercises, and brutal sentencing of those 
who seek to organize true democracy for China.
    I would submit that although the triggering incidents 
leading to this series of events seemed diverse, our tragic 
mistake in bombing the Chinese embassy in Belgrade, President 
Lee Teng-hui's comment about state-to-state relations being the 
proper basis for PRC-Taiwan negotiations, and the silent 
demonstration in Beijing by the Falun Gong sect, the underlying 
sources of the PRC's behavior are, I believe, essentially two:
    First, a fear of potential political unrest stemming from 
economic change in China, and, second, U.S. policy itself.
    First, the disestablishment of the large state-owned 
enterprises over the long run as sponsored by Zhu Rongji and 
others will bring some economic freedoms over time to China 
that, in my judgment, will help begin to change Chinese society 
and ultimately making China more conducive over time to 
political freedom. But in the short run, the unemployment which 
this disestablishment produces can lead to instability. Thus, 
there is a temptation for Beijing to play the nationalism card 
as a way of reducing the chances of that instability and 
enhancing Beijing's own hand.
    I am glad to see support for normal trade relations between 
the PRC and the United States. I am sorry to have seen the 
Administration some months ago delay the negotiations on the 
WTO, especially in light of Zhu Rongji's efforts last spring to 
compromise with American positions. In light of some criticisms 
that I will offer in a moment of the Administration for being 
too lenient with the PRC, I would suggest that here on the WTO 
last spring it was too rigid. It is almost as if they were 
embodying the pointed line from Bishop Cranmer's Book of Common 
Prayer, ``we have left undone those things which we ought to 
have done and we have done those things which we ought not to 
have done.''
    The second determinative, I believe, of Beijing's behavior 
is U.S. policy. Although I do think in the above instance last 
spring that the Administration offered insufficient 
encouragement to Zhu Rongji and other reformers, nonetheless, 
in many other steps, several of them regarding Taiwan, the 
Administration in the last year or so I believe has appeased 
China.
    Now, I don't believe there is any other word for the 
Administration's behavior. Until 1939, in September, that word 
merely meant compromising or accommodating, but since that date 
it now, of course, suggests undercutting a small nation's 
ability to resist aggression by compromising one's own 
principles.
    When I used this word before a Senate Committee last month, 
the Administration's State Department spokesman James Rubin 
said ``Woolsey is no China expert.'' But I would call to the 
Subcommittee's attention that I was not talking about Chinese 
behavior. I was talking about U.S. Government behavior, and I 
still think appeasement is the right word to use.
    In effect, the Administration's policies have encouraged 
the most hard line of the PRC factions, particularly vis-a-vis 
Taiwan. In reversing its campaign criticism of the Bush 
Administration for being too accommodating to the ``butchers of 
Tiananmen,'' the Administration has declared a strategic 
partnership with Beijing, a phrase that given the military 
source of the word ``strategic,'' would mean to 99.9-percent of 
the people in the world a de facto military alliance, something 
which vastly overstates our relationship with the PRC.
    The President has echoed Beijing's formulation during his 
visit there of the ``three noes'', without clearly declaring at 
the same time, although he has brought it up since, that it was 
unacceptable for the PRC to use force in the Taiwan Straits.
    The Administration has subordinated relations with the 
regions' democracies--Japan, South Korea, and Taiwan--by 
acquiescing, for example, to the PRC's pressure that the 
President not visit Japan on his trip last year to the PRC. 
Traditionally, Japan is a stopover either going to or coming 
from Beijing for American presidents and senior officials of 
all sorts.
    Deputy Assistant Secretary Shirk said that the President 
has expressed a ``continued commitment'' to the one-China 
policy, but like Secretary Weinberger, my impression is that 
what he has rather done is explicitly adopted the formulation 
of the one-China policy as set forth by the PRC, rather than 
doing what had been done in the past, beginning in 1972: 
namely, acknowledging that both governments at that time on 
both sides of the Strait had a one-China policy. They just 
disagreed on who should govern China.
    I can't pin down exactly when this formulation changed to 
acknowledging something that two other entities were saying to 
adopting the formulation, but it is not a negligible change in 
American policy.
    The President has spoken favorably of the PRC's takeover of 
Hong Kong as a model for relations between the PRC and Taiwan, 
and that situation is not entirely comporting with the original 
guarantees by the PRC.
    The Administration has severely restricted arms sales, even 
of, I think clearly, defensive weapons, to Taiwan. The 
Administration has, instead of apologizing once clearly for the 
tragic bombing of the PRC embassy in Belgrade, apologized so 
many times and so profusely at so many levels as, I think, to 
cheapen the coin of an American government apology.
    Now a number of these steps have undercut what I believe 
was the laudable, if somewhat delayed, dispatch of the two 
aircraft carriers to the waters near Taiwan in the spring of 
1996 at the time of the last crisis.
    Mr. Chairman, I believe this is a very dangerous stance 
that the President and the Administration have either chosen to 
move to or have drifted into. It is potentially even a tragic 
stance.
    When dictatorships see prey, such as, for example, Germany 
viewed Czechoslovakia in 1938, they need to be deterred in 
order for peace to be protected. The sort of ambiguity the 
Administration espouses was the heart of Britain's and France's 
position with respect to Germany's Eastern neighbors in the 
1930's. Strategic ambiguity it was. Needless to say, that did 
not work very well, probably because no one was more surprised 
than Hitler when the indecisive Western governments that had 
abandoned Czechoslovakia decided to stand by Poland in 1939, 
and World War II began.
    The ambiguity of a number of European powers' guarantees to 
one another by the time of August 1914 also famously 
contributed to the outbreak of World War I.
    Taiwanese status as prey is sharpened in the PRC's eyes 
because of the island's democratic reforms of recent years. As 
a vibrant and prosperous democracy with political and economic 
freedom, Taiwan constitutes an affront to Beijing. It is a 
living, breathing proof that the self-serving nonsense put out 
by autocratic and dictatorial leaders in Asia and those who are 
sympathetic to them that democracy is inconsistent with Asian 
values is quite false. Taiwan is an affront to the PRC in 
exactly the same way that in the fall of 1989 Solidarity Poland 
was an affront to the U.S.S.R.
    I take the Administration's points--that military sales are 
not everything and that good U.S.-PRC relations redound to 
Taiwan's benefit. I also acknowledge that President Lee Teng-
Hui's recent remarks departing from the fictitious and stale 
but diplomatically useful old one-China formulation, have given 
Beijing an excuse for saber rattling. It is worth noting that 
one of the most skillful and successful diplomats in history, 
Talleyrand, once said that language was given to man to conceal 
thought. And however understandable President Lee's comments 
were in the context of Taiwan's vigorous and free political 
debate, I would advance the somewhat old-fashioned notion that 
there are some things best left unsaid by those who head 
governments.
    But the key point is that we need to be polite and 
diplomatic, I believe, with Beijing, but we also need to 
acknowledge and reward the efforts of some in the PRC 
government who seek to work with us, such as the efforts of Zhu 
Rongji, that brought proposals this past spring on the WTO 
negotiations. But over the long run, it is very dangerous to 
meet the aggressive moves of dictatorships against their 
potential prey with appeasement. Appeasement may buy you some 
time in the short run. Chamberlain was sure the sellout of 
Czechoslovakia in Munich in 1938 would bring peace in our time. 
It did. But his time only lasted one year.
    I believe that clear, not ambiguous, American support for 
Taiwan's right to be protected from the use of force by Beijing 
is an essential part of maintaining peace in the Taiwan 
Straits. The Administration has turned instead to ambiguity and 
I would say appeasement. In the interest of peace, the 
Executive Branch needs to be brought up short and forced to 
change this very shortsighted policy. This bill in some form 
can help bring that about and I would urge Congress to move 
forward with it.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you very much, Director Woolsey. Now we 
would like to hear from Dr. David Lampton.

 STATEMENT OF DR. DAVID M. LAMPTON, DIRECTOR, CHINESE STUDIES, 
    SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS 
                           UNIVERSITY

    Dr. Lampton. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you today and share my views on 
the Taiwan Security Enhancement Act.
    Mr. Chairman, your Subcommittee has played a major and 
constructive role in our relations with the PRC, Hong Kong, and 
Taiwan over the last years, and I want to thank you for that 
role and your colleagues as well.
    With respect to the business at hand, however, relations 
with the PRC and Taiwan and the Taiwan Relations Act, the 
Taiwan Relations Act was passed by Congress during the 
Chairman's first term, 20-years ago. The TRA has contributed to 
stability in East Asia and fostered an environment that has 
both allowed the United States to develop relations with 
Beijing, and permit the people of Taiwan to make stunning 
social, economic and political progress over the last two 
decades, progress we all admire.
    Therefore, it is with considerable forethought that I say 
that the proposed legislation will undo the good work of the 
TRA, and I must say that I agreed fully with your opening 
statement, Mr. Chairman, and certainly Senator Thomas'. I was 
quite interested to hear Congressman Lantos say that our 
friends sometimes have to have some self-imposed restraint. I 
thought those were interesting comments, and I was quite struck 
by Congressman Salmon's comments, having lived in Taiwan, to 
say that sometimes friends have to stand up with friends and 
give them their best judgment, even if it is not particularly 
welcome.
    Were the proposed legislation to become law, it would make 
unachievable the principal objective of the TRA, which was ``to 
help maintain the peace, security and stability in the Western 
Pacific.''
    The question came up earlier, just parenthetically, does 
the TRA need to be amended, and then the issue was what do 
people in Taiwan want in that regard, and what is the range of 
opinion about that? I think many people I have talked to in 
Taiwan are afraid to tamper with the TRA at all, afraid that 
might get out of control. So that is one issue. I don't know 
any serious person in Taiwan at least that I have talked to who 
wants to amend the TRA.
    My areas of concern with respect to the proposed 
legislation fall into six broad categories. First, the TRA, in 
conjunction with the three communiques and other statements and 
correspondence, have provided a very successful framework for 
managing a complicated and sensitive three-way relationship. 
The proposed legislation is, therefore, unnecessary in my view. 
The 20-years since the adoption of the TRA have witnessed 
enormous progress on Taiwan. With respect to cross-Strait 
relations and security, while there are worries, and we have 
talked about them--the missile deployments, the landing 
exercises and so on--there is also progress to report.
    Put bluntly, Mr. Chairman, if security were so tenuous on 
Taiwan and cross-Strait relations were so perilous, why is it 
that 40,000 Taiwan firms have contracted to invest $40 billion 
U.S. dollars on the mainland? Why is it that Taiwan is sourcing 
a large chunk of its computer components in the PRC? Indeed, 
one-third of the Taiwan information industry's total output is 
produced in plants on mainland China. Moreover, in 1997, if one 
includes goods exported from Taiwan through Hong Kong to the 
PRC, China was Taiwan's largest market, and Taiwan was China's 
first ranking supplier.
    This legislation it seems to me also is unnecessary because 
considerable legislative authority proposed in the Taiwan 
Security Enhancement Act already exists in the TRA, 
particularly those provisions relating to defensive weapons 
sales. We can go into that more, but I think the basic point is 
that the President has the authority to do most of what is 
proposed in the weapons sales area. The operative word in the 
bill is to ``authorize'' the President, and he is already 
authorized.
    Further, the premise that weapons sales have been 
inadequate is undermined by the figures on past and current 
arms sales and deliveries to Taiwan presented in my written 
testimony. These sales and/or deliveries have included F-16s, 
the Patriot missile, Perry and Knox class frigates, and, most 
recently, early warning radars. Indeed, many analysts in our 
defense and intelligence agencies argue that Taiwan's problem 
now is absorbing the weapons, training the people, and 
maintaining the equipment they have already acquired.
    Figures provided in my written testimony show that in 1997, 
deliveries under foreign military were 8.5 times the 1981 level 
in constant dollars.
    My second problem with this piece of legislation is as 
follows. I was part of a group that met with President Lee 
Teng-hui on June 24th. The American group that met with him 
made the point that we need to focus not simply on military 
prowess and hardware, but also on the incentives for Beijing to 
not employ coercion.
    In short, I think it is a profound mistake to think that 
Taiwan's security is going to be principally achieved by 
weapons. Taiwan is too close to 1.3 billion people for that to 
be a feasible long-term proposition.
    Conceding, and I would be the first to concede that there 
is an important role for deterrence, (Beijing does need to be 
deterred), we need to ask why has Beijing not for the most part 
exerted force against Taiwan during the last three decades? An 
important part of the answer lies in U.S. ICM military power 
and credibility.
    But that is only part of the answer. The more comprehensive 
part of the explanation I believe is that there has been a 
balanced framework of three considerations in Beijing's mind. 
First, the United States must be credible and constant. I 
believe that in 1995-1996, Beijing launched its missiles 
thinking that the United States would not respond. I think they 
were surprised by our response. If they don't believe us, that 
is a real problem.
    Second, however, Beijing must also believe that time is not 
working against eventual reunification. In short, there at 
least has to be some hope that the trend line isn't toward 
certain independence.
    Third, Beijing must have a stake in a positive framework of 
cooperation with us and our allies in the Pacific and in 
Europe.
    Frankly, the proposed legislation upsets the delicate 
balance among these three considerations by giving the PRC less 
of a stake in good relations with the United States and by 
signalling to many in China that time is eroding any 
possibility of reunification. Most fundamentally, I believe 
Beijing will initiate conflict even knowing it will lose--which 
I believe it will, I am certain it will lose--rather than 
acquiesce to an independent Taiwan.
    Fourth, the proposed legislation would amount to a 
substantial restoration of the 1954 Mutual Defense Treaty and 
thereby be inconsistent with the cornerstone of the 
normalization agreements of December 1978. In the interests of 
time, I will just leave that point, but I think it would 
undermine the basis of normalization that was agreed to in 
1978.
    My fifth problem with the legislation, another area of 
concern, relates to the bill's provisions with respect to 
theater missile defense. To be talking about authorizing the 
provision of high altitude upper-tier anti-missile systems that 
have not yet gone beyond testing or the drawing board is both 
premature and unwise. It is premature because usually before 
encouraging the sale of weapons, we want to fully understand 
what we are proposing to transfer, both in terms of its 
technology and the obligations that it may impose on the United 
States.
    The bill's provisions are unwise because if enacted, those 
provisions would accelerate the already worrisome growth of 
missiles, short range missiles in the PRC, and provide 
incentives for a regional arms race.
    Sixth, the timing of the bill is very unfortunate, given 
all of the events in the context of our relations, and I will 
not go into that more. But this will certainly not get us on a 
productive track with the PRC. We have some hopes coming out of 
the recent meeting between Presidents Jiang and Clinton. This 
is not very timely.
    Finally, it seems to me that at this moment in U.S.-PRC 
relations, Washington ought to be pursuing available 
opportunities that will enhance the security and the welfare of 
people, both in Taiwan and in the United States, as well as the 
PRC. I think a much better avenue, Mr. Chairman, to follow 
right now is to exploit the possibilities that may exist in 
getting not only the PRC into the WTO, but Taiwan as well. 
Quite frankly, as much as we all might wish it differently, I 
believe Taiwan will not enter the WTO until the PRC does 
because of Beijing's policy.
    By way of concluding then, I would just say let's for the 
moment concentrate on the opportunities for cooperation. Let's 
not exacerbate things further. Finally, this may surprise you, 
given the tone of my comments to this point, but I have another 
principal recommendation, and that is as follows: I do think 
there is some ambiguity in the current structure of the three 
communiques and all of the various statements that have been 
issued and the Taiwan Relations Act. There is a possibility for 
miscalculation, potentially very serious miscalculation, in 
both Beijing and Taipei.
    The Executive Branch, in my view, therefore, would be well 
advised to continue to reduce ambiguity, to some extent. More 
particularly, the Executive Branch should make it clear that 
not only will an attack on Taiwan not be tolerated and will 
encounter resistance, but Taiwan also must understand that 
there will be a price attached to actions that increase 
regional instability and show no regard for American interests. 
The United States should, in short, oppose unilateral actions 
that upset the status quo, whatever their source.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lampton appears in the 
appendix.]
    Mr. Bereuter. Thank you very much, Dr. Lampton, and thank 
you, gentlemen, for your statements. I think we have had a 
balanced presentation by the panels together. We have certainly 
heard differing views on the legislation offered by Congressman 
DeLay and many others and by a counterpart in the Senate.
    I do recall, Dr. Lampton, your last comment made me think 
of my visit to China with Speaker Gingrich and how he said to 
President Jiang that the United States will come to the defense 
of Taiwan if China attacks Taiwan. President Jiang, instead of 
giving us the usual lecture to which I had become accustomed on 
Taiwanese issues, said that China does not intend to attack. We 
then went on to more productive discussions.
    When that same Congressional delegation went to Taiwan, 
Speaker Gingrich was equally candid with President Lee about 
not doing things that are provocative and that are beyond what 
they should reasonably expect us to tolerate on their part. 
President Lee offered no direct comment, but I think the 
message was taken.
    Dr. Lampton. I have always had very high regard for the 
Speaker's trip. I thought those were very useful statements.
    Mr. Bereuter. Thank you. I think so, too, frankly. I am 
interested in your statement that perhaps there is ambiguity 
that the Administration needs to correct. Of course, this is 
one of the things that we can do here as a Congress, too. We 
obviously need to do this very carefully. I do not know of a 
more important matter that has come before the Subcommittee in 
the terms I have been here.
    I would like to ask any of you gentlemen to comment on 
whether or not you have seen (I do not think the Administration 
could have answered this candidly) indication that China is 
using its knowledge as leverage? We now as a country understood 
that the President made a mistake in sending Chinese Premier 
Zhu Rongji home without agreeing to the WTO accession 
agreement. Are you seeing this in any fashion played in a 
larger context by the PRC? Are they trying to use this 
information as leverage now in any respect?
    Mr. Woolsey.  The one thing that I have seen just in the 
last day or two, Mr. Chairman, and just some sketchy press 
reports, seems to suggest that the PRC is playing quite tough 
with respect to the terms of the WTO deal, not fully going 
along, for example, with some of the concessions that Zhu 
Rongji made in April.
    My hunch is that they are of the view right now that we 
need improved relations with them more than they need improved 
relations with us and they will be far more hard to bargain 
with on the exact terms of the deal than they would have been 
in April.
    Mr. Bereuter. That may well be their perception, and I 
think that is just exactly the wrong perception for them to 
have. If we as a country or government somehow have contributed 
to that, we need to rectify that.
    Mr. Weinberger. There was a specific incident to that about 
2 days ago in which the Chinese official responsible for the 
foreign investment in some of these industries say there was no 
question whatever that foreign investment would not be 
permitted with respect to any ownership of any kind of systems 
involving the Internet or the Web or any of those things, and 
that was a clear step backward from what they had presumed to 
offer prior to the earlier negotiations on the WTO.
    Dr. Lampton. Mr. Chairman, I think we are seeing a little 
kabuki from Beijing here, mixing my nationality metaphor a bit. 
But I think they are very highly motivated to get in WTO, and I 
think they are holding out the prospect of taking back some of 
their April 8th offer because the Administration is trying to 
get a few new things from Beijing to have justified its delay. 
My guess is that if we could accept the April 8th offer, the 
Chinese would stick. That is just my guess--right now that we 
are seeing posturing.
    Also, I think we ought to be pretty confident of our 
position inasmuch as I think the Chinese believe they need to 
be in WTO. They are highly motivated for economic reasons. 
Their foreign direct investment is declining and they want to 
reassure the foreign investing communities. Also their exports 
have not grown nearly as rapidly as they need to sop up the 
unemployment that Jim Woolsey mentioned. I think we ought to 
recognize the Chinese want in for economic reasons. They are 
holding back some of their offer so that they can use it as 
leverage so we don't ask for any more. But I am hopeful that we 
can hang in there pretty much with what looked like April 8th, 
if that is acceptable to the Congress.
    Mr. Bereuter. I do want China to be in the WTO but under 
the right agreement. I have offered the idea, knowing frankly 
that it is not likely to happen, that Taiwan could come in 
ahead of time if, necessary, since they meet the requirements. 
I do think I certainly would approve it.
    If my colleague would give me two additional minutes here, 
I will try to make it up to the gentleman. Is there objection?
    I will just conclude by sneaking in a question. Dr. 
Woolsey, you mentioned the reluctance of the Administration to 
sell certain arms. Perhaps you heard Dr. Campbell talk about 
the Army dominance the lack of training, and, in fact, the lack 
of purchasing some weapons recommended. I would like to ask any 
of you if you would make comments now about the arms sales 
issue--the Administration's reluctance, ability, or 
willingness--and what the Congress should do to push for the 
right kind of attitude in that respect, if anything?
    Mr. Woolsey. I imagine the Taiwanese are of a view that 
they made a bad mistake in going for those French frigates some 
years ago rather than the Aegis destroyers. Secretary Campbell 
said that he had classified information to give the Committee 
in private on that. There may be a number of issues with 
respect to that we out here are not knowledgeable of.
    But I have thought that both our declining to permit them 
to buy submarines that have American subsystems on them, in 
light of the situation in the Taiwan Straits, has been a bad 
decision. They are so outnumbered in submarines, and submarines 
are excellent anti-submarine platforms. The chance that the 
Taiwanese could use diesel submarines offensively, for example 
to blockade the PRC, is just ludicrous.
    So I have often been perplexed over the last number of 
years at our lack of willingness to go along with submarine 
sales, presumably built in other countries but with American 
systems on them.
    Mr. Bereuter. Just a clarification, do you wish to say the 
American system or the Australian system, which have the 
benefit of American technology, might be an adequate way of 
dealing with the fact that we don't produce submarines?
    Mr. Woolsey. I think so.
    Mr. Bereuter. Any further comments?
    Dr. Lampton. Well, it would just seem to me as a realistic 
statement, I can't speak for all our allies, but it is not 
clear to me who would want to sell Taiwan submarines, taking 
the heat they would probably feel they are going to take from 
the PRC. That is an empirical question. But our allies have 
frequently shown a lot less courage on weapons sales to Taiwan 
than we have.
    Mr. Weinberger. I think also, Mr. Chairman, it is important 
to bear in mind that missile defense is something that Taiwan 
and the United States urgently need I thought the testimony of 
the Defense representative today to the California Congressman 
was very revealing because it is essential that they have that 
kind of capability. We are the ones who would be able to supply 
it to them, and our refusal to do so could do nothing but 
encourage the mainland to believe that they are going to be 
free to make missile attacks against a country which has no 
defense against them.
    Mr. Bereuter. I thank the gentleman. There are other 
questions. The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. First of all, my greetings to former 
Secretary of Defense Weinberger.
    Mr. Weinberger. Thank you, sir.
    Mr. Rohrabacher. We worked together in the Reagan 
Administration. During that time, of course, there was a great 
evolution toward democracy on the mainland, something that 
President Reagan consciously fostered, and a lot of people 
don't take into consideration now. They forget that during the 
Reagan years it appeared that China was on the way toward a 
type of reform that we saw take place on Taiwan.
    Mr. Weinberger. I think the real turning point there, 
Congressman Rohrabacher, was the death of Deng Xiaoping when I 
had the privilege of meeting with him several times when I was 
over there. He understood better I think than anyone the vital 
necessity and some of the requirements of improving the 
relationships between the two countries. I think he apparently 
always had strong opposition to some of the things he was 
trying to do. But when he died and after he died, there still 
is a period of some, I think fair to say, some uncertainty as 
to what the future of China's policy will be. But at the moment 
I think it does seem to be in the hands of people who feel they 
can apply a military solution to Taiwan and that we will not do 
anything about it. That is why I think it is so essential that 
we not leave any ambiguity and why I think the Helms-Torricelli 
Act proposal, although it may not be necessary--it may be in 
the words of one of the witnesses today--it may not add 
anything new or be required. Failure to pass it would be 
sending another very bad signal.
    Mr. Rohrabacher. I think that what we are talking about 
here is that when we see the potential conflict in that region, 
it is that we are mistaking the fundamental cause and the 
fundamental reasons for the potential upheaval. The potential 
problem doesn't arise from the fact that there is an 
overabundance of sentiment for independence on the island of 
Taiwan. That is not the problem. The problem is a lack of 
democracy on the mainland of China.
    Mr. Weinberger. That is exactly right, yes.
    Mr. Rohrabacher. If there was a democratic government on 
the mainland of China, there would not be this friction and 
this potential catastrophe and complication we are worried 
about.
    Mr. Weinberger. You had it exactly right, sir. There is no 
possibility of Taiwan attacking the mainland, and there is no 
possibility of any overt actions of that kind. They want to be 
left alone to prosper as they have with the feeling that they 
will be secure against outside attack. President Lee has never 
supported independence. His party never has. One of the 
opposition parties talked about it. They have even come pretty 
close to abandoning that as I understand it now. But, again, 
the furor and the anger that the mainland greeted President 
Lee's very simple statement, which simply stated the facts, is 
again an indication to me that, as with the case of the 
unfortunate bombing of their embassy in Belgrade, that they are 
seizing any opportunity to try to get us in an apologetic, 
defensive mood in which we will not be as supportive of Taiwan 
as we should be.
    Mr. Rohrabacher. You know, when we are talking about WTO, 
Mr. Woolsey, I don't know why we want Al Capone to join the 
Chicago Chamber of Commerce. I don't know why we want the worst 
gangster in the world to be part of our bodies here of 
governing trade----
    Mr. Weinberger. That is an extremely valid point, because 
once in, there are no provisions for getting anybody out. Any 
single member can cause a very substantial amount of 
difficulty, delay and ultimate damage to any policies that we 
may want to have. So it is not I think an organization to which 
people should be lightly admitted.
    Mr. Rohrabacher. I appreciate that thought. Mr. Secretary. 
I think, again, back to fundamentals, and, Mr. Woolsey, to be 
fair, you know, your remarks were based on a recognition that 
what we are dealing here with is not with a government by the 
definition of what America believes a government is. A 
government is a body that has the consent of the governed, and 
this is not the basis of power of that small group, that 
clique, that holds power on the mainland of China. To the 
degree that we try to treat governments like Taiwan in the same 
way that we treat a gangster regime like on the mainland, as 
moral equals. We are sending out the wrong signals to the 
world. They wonder why those tough guys who don't believe in 
the democratic rights that we believe in, don't believe in the 
freedoms that we believe in, who have power in the mainland, no 
wonder they think that we are weak when we send out these kinds 
of signals. No wonder they push us to the limit because they 
perceive this as ambiguity, they perceive this lack of 
principle on our part as weakness.
    Mr. Woolsey.  Congressman, I see the WTO issue somewhat 
differently. There are, of course, countries in the WTO that 
are not democracies, and the political and economic freedoms 
tend to be connected. But they certainly don't march along 
hand-in-hand with one another. We do have examples of countries 
that have liberalized economically and then sometime later 
political change may take place. Taiwan is actually one example 
of that. Taiwan had partially free and then a free economy 
while it was still a dictatorship a decade or so ago, and that 
economic freedom tended to bring about political freedom. I 
think the same thing happened in South Korea.
    So this is a tactical matter, as far as I am concerned. I 
think the question with respect to the WTO should be how hard a 
bargain can we drive in opening up China's economy and how much 
can we successfully use greater integration into the world 
economy to undermine the positions of those whom I think we 
both disfavor in Beijing, and to, relatively speaking, advance 
the positions of those such as Zhu Rongji, who are trying to 
open up the economy. I think it is a tactical question and I 
see it, I guess, differently than you and Secretary Weinberger.
    Mr. Rohrabacher. One last thought. You used two examples of 
anti-communist regimes, and you can use perhaps even Chile, as 
far as I know, in terms of countries that were dictatorships 
evolving into democracies. I don't think there are any examples 
of communist governments that were reformed by economic reform 
first. In fact, it seems that was just the opposite direction 
when it comes to those type of dictatorships.
    Mr. Woolsey.  That is a fair point.
    Mr. Rohrabacher. Thank you very much.
    Mr. Bereuter. I saw Dr. Lampton wanted to respond to one of 
your questions earlier, Mr. Rohrabacher.
    Mr. Rohrabacher. Oh.
    Dr. Lampton. I want to say the first time I went to the PRC 
was in 1976. Mao had just died. If you want to see a 
dictatorship and authoritarian regime, that was the time and 
place to go. I think one has to look at the trend line, the 
direction of change. I think if you had all the China experts 
and all of the people who had been to China from 1976 and 
before in a room and asked would China be a major trading 
power, would it be in the World Bank, would it be a 
constructive member of the IMF, would it be a member of the 
comprehensive test ban treaty and all this, there wouldn't have 
been a person in the room or in the world that claimed to know 
about China that would have thought that was remotely possible 
20 years from 1976.
    So I think what we have to do is not only look at what we 
dislike in China, and there is much to dislike, but what are 
the tools we have available to push it in a direction we like 
and what is the trend line?
    Mr. Rohrabacher. Some of us still are not happy with them 
being in those organizations.
    Mr. Bereuter. Thank you, gentleman. Dr. Cooksey, you have 
the last 7 minutes. Then we are going to adjourn.
    Mr. Cooksey. Well, thank you, Mr. Chairman. I do appreciate 
your testimony. It is good to have some people that come in and 
give direct testimony that is clear and you can understand your 
position. I agree with 99 percent of what you said on your 
positions, but I have some questions. I will tell you this, 
quite frankly, I was bothered by the practiced ambiguity and 
tendency of acquiescence that is reflected by the people that 
testified in front of you, but I think that is a reflection of 
the person that is their leader.
    Would it be unreasonable for Taiwan to be admitted to the 
WTO simultaneously with the PRC? It is my understanding that 
Taiwan has met all the criteria for admission to the WTO. It is 
my understanding that the PRC has not, but they are working on 
it. I think that both of them should be.
    Mr. Woolsey. I would have no objection to that, 
Congressman. I think that is reasonable.
    Mr. Cooksey. Is that a reasonable demand for Members of 
Congress to make, that they both be admitted simultaneously? My 
concern is if one is admitted before the other, one might 
prevent the other from coming in.
    Dr. Lampton. I believe there is an agreement worked out 
between the parties that they will either enter simultaneously, 
or so close, you will need a photo finish to figure out who 
went across the line first. That is already worked out, I 
think. The real issue is whether or not to push for Taiwan's 
entry first if we can't reach agreement with the PRC. I think 
the world economic organizations ought to reward those who meet 
the criteria. That is what I think.
    But if I make an objective analysis of the capacity of the 
PRC to leverage the body that will vote on accession, I don't 
think Taiwan is going to get in until the PRC does. I think our 
European Union friends, Pakistan, and Bangladesh will assure 
that Taiwan does not enter before the PRC.
    I would just say in the context of this hearing and the 
proposed legislation, that the simultaneous entry of both of 
them into WTO might be a useful way to get the cross-Strait 
dialogue going, because they are going to have to both try to 
be WTO compatible in their cross-Strait economic relationship. 
In a kind of funny way, WTO simultaneous entry helps us at 
least get some discussion across the Strait.
    Mr. Cooksey. Contrary to what Dr. Shirk said, and I 
appreciated her brief answer, even though she disagreed with my 
position, and my position is that I blame most of the problem 
on politicians. I don't know what Dr. Campbell said. I don't 
know if he knows what he said. But contrary to their position, 
I feel the business people in these two entities and the people 
can work together. They are brothers, they are cousins, they 
are distant relatives. I really feel like that is a proper 
approach, and obviously Taiwan has got $35 to $40 billion worth 
of investment there. I think it can work, and I think it should 
work.
    In lieu of that, however, I really feel that at the end of 
this century, the time for saber rattling is over, and I think 
that the war of words is all we should have. If either side, 
whether it be Taiwan or the PRC, continues the saber rattling, 
then I feel we should do everything to make sure that the TRA 
stands as it is, and, if necessary, to reinforce it with the 
Taiwan Security Enhancement Act. I know that is not exactly 
your position, but do you feel it is unreasonable to give 
Taiwan defensive weapons? It is just I feel like anyone should 
be able to defend themselves.
    Dr. Lampton. We are required under law. The Taiwan 
Relations Act requires us to provide defensive weapons, weapons 
of a defensive character, to help Taiwan as it assures its own 
security. So I don't think that is even a question.
    I think when you get to submarines and particular weapons 
systems, you get into a kind of debate about what is an 
offensive weapon versus a defensive weapon. Of course, that is 
often in the eyes of the beholder, I guess. But I don't think 
anybody here on this panel, I haven't heard anyone serious even 
argue we shouldn't be selling weapons to Taiwan. The issues are 
what to sell, how much to sell, and who ought to have the final 
say.
    Mr. Weinberger. It is that very question, Congressman, of 
what is within the Taiwan Relations Act or isn't that needs to 
be clarified. Because with this kind of situation, the saber 
rattling that you have spoken about which we believe should 
stop, which the People's Republic apparently doesn't believe 
should stop, that you are narrowing the time in which Taiwan 
would be able to get the kind of defensive capabilities that 
would stop the saber rattling. I think it is essential that we 
do clarify the Taiwan Relations Act with respect to what is a 
defensive weapon and put it much more on the basis of what are 
Taiwan's need to protect itself.
    Mr. Cooksey. Does this clarify it, do you think?
    Mr. Weinberger. I think so. I haven't seen the final 
version, but the earlier versions I saw did.
    Mr. Cooksey. Again, thank you for appearing. I did 
appreciate very clear and clairvoyant testimony. It is good to 
know there is still someone in Washington that can present that 
kind of intelligent testimony. I don't know if we can get all 
these people together without a war, and I wish they would sit 
down and drink some rice wine and eat some great Chinese food 
and get it over with, because I think they are all good people. 
But I do have a problem with the current political model that 
is being used in the PRC, and I think it needs to be changed 
and that it needs to be fast forwarded to catch up with Taiwan. 
Then I think that a lot of this will occur. I give up minutes 
of my time, if I have any left, since the Chairman did.
    Thank you, Mr. Chairman.
    Mr. Bereuter. I agree with the gentleman's comments about 
the helpfulness, clearness, and directness of the testimony 
provided by the third panel. Thank you very much, gentleman, 
for spending so much of your day here. It is very valuable to 
us. I appreciate it.
    Thank you. The Subcommittee is adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 15, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] 60545.001
    
    [GRAPHIC] [TIFF OMITTED] 60545.002
    
    [GRAPHIC] [TIFF OMITTED] 60545.003
    
    [GRAPHIC] [TIFF OMITTED] 60545.006
    
    [GRAPHIC] [TIFF OMITTED] 60545.007
    
    [GRAPHIC] [TIFF OMITTED] 60545.008
    
    [GRAPHIC] [TIFF OMITTED] 60545.004
    
    [GRAPHIC] [TIFF OMITTED] 60545.005
    
    [GRAPHIC] [TIFF OMITTED] 60545.009
    
    [GRAPHIC] [TIFF OMITTED] 60545.010
    
    [GRAPHIC] [TIFF OMITTED] 60545.011
    
    [GRAPHIC] [TIFF OMITTED] 60545.012
    
    [GRAPHIC] [TIFF OMITTED] 60545.013
    
    [GRAPHIC] [TIFF OMITTED] 60545.014
    
    [GRAPHIC] [TIFF OMITTED] 60545.015
    
    [GRAPHIC] [TIFF OMITTED] 60545.016
    
    [GRAPHIC] [TIFF OMITTED] 60545.017
    
    [GRAPHIC] [TIFF OMITTED] 60545.018
    
    [GRAPHIC] [TIFF OMITTED] 60545.019
    
    [GRAPHIC] [TIFF OMITTED] 60545.020
    
    [GRAPHIC] [TIFF OMITTED] 60545.021
    
    [GRAPHIC] [TIFF OMITTED] 60545.022
    
    [GRAPHIC] [TIFF OMITTED] 60545.023
    
    [GRAPHIC] [TIFF OMITTED] 60545.024
    
    [GRAPHIC] [TIFF OMITTED] 60545.025
    
    [GRAPHIC] [TIFF OMITTED] 60545.026
    
    [GRAPHIC] [TIFF OMITTED] 60545.027
    
    [GRAPHIC] [TIFF OMITTED] 60545.028
    
    [GRAPHIC] [TIFF OMITTED] 60545.029
    
    [GRAPHIC] [TIFF OMITTED] 60545.030
    
    [GRAPHIC] [TIFF OMITTED] 60545.031
    
    [GRAPHIC] [TIFF OMITTED] 60545.032
    
    [GRAPHIC] [TIFF OMITTED] 60545.033
    

</pre></body></html>
